<html>
<title> - A CONTINUED REVIEW OF GI BILL PAYMENT DELAYS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
              A CONTINUED REVIEW OF GI BILL PAYMENT DELAYS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, NOVEMBER 15, 2018

                               __________

                           Serial No. 115-82

                               __________

       Printed for the use of the Committee on Veterans' Affairs    
       
       
       
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
       


        Available via the World Wide Web: http://www.govinfo.gov        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-836              WASHINGTON : 2019       
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BILL FLORES, Texas                       Member
JIM BANKS, Indiana                   MARK TAKANO, California
BRIAN MAST, Florida                  LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                              ----------                              

                      Thursday, November 15, 2018

                                                                   Page

A Continued Review of GI Bill Payment Delays.....................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     3

                               WITNESSES

The Honorable Paul R. Lawrence Ph.D., Under Secretary for 
  Benefits, Veterans Benefit Administration, U.S. Department of 
  Veterans Affairs...............................................     5
    Prepared Statement...........................................    39

  Accompanied by:

    MG Robert M. Worley II USAF (Ret.), Director, Education 
        Service, Veterans Benefit Administration, U.S. Department 
        of Veterans Affairs

    Mr. Bill James, Deputy Assistant Secretary for Development 
        and Operations, Office of Information & Technology, U.S. 
        Department of Veterans Affairs

    Mr. John J. "Jack" Galvin, Associate Deputy Assistant 
        Secretary for Information Technology Operations and 
        Services,Office of Information and Technology, U.S. 
        Department of Veterans Affairs

Mr. Richard Crowe, Senior Vice President, Booz Allen Hamilton....     6
    Prepared Statement...........................................    41

                        STATEMENT FOR THE RECORD

Iraq and Afghanistan Veterans of America (IAVA)..................    43
National Association of Veteran Program Administrators (NAVPA)...    45
Student Veterans of America (SVA)................................    47
Tragedy Assistance Providers for Survivors (TAPS)................    55
Veterans Education Success (VES).................................    57
Veterans of Foreign Wars of the United States (VFW)..............    60


              A CONTINUED REVIEW OF GI BILL PAYMENT DELAYS

                              ----------                              


                      Thursday, November 15, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                       Subcommittee on Economic Opportunity
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 4:03 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Banks, Mast, 
Roe, O'Rourke, Takano, and Correa.
    Also Present: Representatives Coffman, and Bergman.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. The Subcommittee 
will come to order.
    I'm going to apologize in advance for the length of my 
remarks, but I think they're important. So let's begin.
    First, again, thanks for everybody being here and everybody 
participating in the hearing, the Subcommittee on Economic 
Opportunity, where we'll continue the oversight, the 
implementation of the post 9/11 GI Bill of 2017 and associated 
payment processing delays.
    As I said in the two previous hearings this Subcommittee 
has held on this topic, it is critical that we work to ensure 
that this bill is implemented so that veterans receive their 
due benefits they deserve in a timely and consistent manner. 
After all, if all we do is pass reform bills that are just kind 
of a memo to the file, unless the VA actually implements them 
effectively. Wouldn't you agree?
    So our hearing that we had on July--sometime in July, we 
implored the VA officials who were here to remedy whatever 
problems existed, and we were promised that they would be 
addressed in a matter of weeks--days, if not weeks. We were 
also assured that delays would be short and would not 
significantly impact students. However, as we sit here almost 4 
months later, it's clear that the VA missed on those 
predictions as well, and the student veterans now are finding 
themselves in a pretty bad situation. And we're hearing from 
them.
    And this may be the worst in terms of implementation and 
problems and burdens placed on our student veterans since the 
2010 GI Bill changes.
    Due to increased workload and continued IT failures, a 
large number of student veterans have contacted Members of 
Congress and VSOs with complaints of extended delays in 
receiving monthly housing allowance payments. And while VA--the 
VA has made some attempt at helping these students, and we 
recognize and appreciate that, I'm still concerned that the VA 
has put out confusing public messages, and IT deficiencies 
continue to put veterans at risk.
    These veterans, as you know, are relying on these payments 
to pay rent and put food on the table. This is no small thing. 
They should no doubt get answers to why these delays are 
occurring and what is the VA doing to address the situation.
    One of the main reasons for these persistent setbacks is 
the continued delay in making modifications to the long-term 
solution, or LTS, the IT system, to properly implement Section 
107 of the law. This section changed the way the VA calculated 
living stipend payments for students for being based on where a 
school was headquartered to being based on where the student 
was taking the majority of their classes.
    At the Subcommittee's hearing in July, we were told that 
the modifications will be completed by mid-August. Once this 
date was missed, the VA has never given the Committee another 
estimated date of completion. Unfortunately, we're about to 
hear from Dr. Lawrence the modifications to the IT system are 
still not ready, and VA still does not know when they will be 
ready to deploy the proper payments to GI Bill recipients.
    I find these delays are simply unacceptable, and I am sure 
my colleagues feel the same way. And I'm very interested to 
hear from the VA OI&T staff and representatives from Booze 
Allen. That would be the Office of Information Technology and 
Booze Allen Hamilton, who is the contractor over this project.
    While I'm certainly not an IT expert, I cannot understand 
why 15 months after this law was passed we are sitting here 
asking these questions. I'm also concerned that when these 
modifications are finally ready for deployment, the VA's 
current IT system will not be able to handle the workload. This 
concern was crystallized by an oversight visit that John and 
some of the other Committee staff members took to Muskogee, 
Oklahoma, where they have a regional--you guys have a regional 
processing center.
    On the visit, staff found dedicated employees trapped in a 
system with aging IT infrastructure that crashed so often that 
simple tasks that should have taken 5 minutes were taking 45 
minutes. Staff also learned that between April and September, 
VA managers in Muskogee had to write off 16,890 man-hours due 
to system crashes or latency issues. Committee staff said that 
they witnessed the system, while they were there, crashed no 
fewer than five times in 10 minutes during a demo.
    While VA OI&T staff continue to look for ways to address 
issues, we've learned that senior VA leaders sent a team of 
their best, quote/unquote, ``programmers'' only after the 
Committee staff's visit. It shouldn't take a congressional 
oversight visit for the VA to address these issues raised a 
number of times over the last 15 months.
    It's also clear that updating and modernizing the half a 
dozen systems needed to complete a GI Bill claim has not been a 
priority for the department. As a result, student veterans are 
now paying the price for VA ignoring and putting Band-Aids on 
this problem, we believe for years.
    I could only begin to imagine the mess VA will have on its 
hand when these already tax systems will be used to process the 
hundreds of thousands of claims that will have to be reworked 
when the modifications tell TS are ready. What is even worse is 
the VA will be doing this rework during the same time they 
typically begin processing claims for the spring semester. This 
means that, while the current inventory of GI Bill claims has 
been worked down, I'm very worried that schools and students 
have not seen the worst of payment delays.
    As I've repeatedly said, many of the hearings and many of 
the issues covered, not only in the Subcommittee but at the--
under the leadership of Chairman Roe, it seems like, Mr. 
Chairman, the root cause has been IT infrastructure and getting 
the right IT solutions and managing the IT systems effectively. 
We saw this earlier in the year with the voc rehab case 
management tool in this Committee, other Booze Allen Hamilton 
project where the department wasted $12 million on an IT system 
with nothing to show for it. And now we're seeing these 
problems rise again with the GI Bill. With the delays for some 
veterans stretching over 60 days, some of these guys are going 
to have some real hardships, real hard--maybe even personal 
familiar crisis as a result of this.
    I understand the systems are old and complex. It is well 
past the point where Congress, taxpayers, and, most 
importantly, our student veterans are going to accept the same 
tired excuses. Congress consistently has provided the VA with 
record budgets. That's clear. And I think the vague answers 
we've gotten, and we've sent a lot of letters, we've had 
inquiries, we've had personal meetings. I think that the 
answers we're getting and the delays and the promises that 
we'll have it fixed that end up not happening are unacceptable. 
Again, I think I can speak for the Committee to say that. And 
we're all concerned about our veterans.
    Dr. Lawrence and Mr. James, I hope you can shed some light 
on what you and Secretary Wilkie are planning to do to address 
these problems. I hope you can tell us when the LTS 
modifications will be ready. Give student veterans simple 
answers as to why we are in this mess in the first place and 
what you're going to do to get it right.
    Student veterans have completed their mission for all of 
us, and it is time that the VA stand up and hold someone 
accountable for their failing actions, or the lack of actions, 
maybe the lack of accountability.
    I now yield to my friend and Ranking Member and fellow 
Texan, Mr. O'Rourke, for any remarks you might have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman. And I don't know 
that there's a whole bunch that I can add to your excellent 
opening comments. But to say that I think typically the format 
for a hearing like this one, having now served on this 
Committee for 6 years, is for those of us up here to express 
our outrage, those of you at the witness table to tell us that 
you're working on the issue, to express your dedication and 
commitment to serving veterans, and for all of us to leave with 
some kind of vague understanding of what will be delivered.
    What I would challenge all of us to do, since we have the 
VA here, the undersecretary responsible, the oversight 
Committee, and authorizing Committee, the contractor who's 
doing the work, is to come up with specific deliverables so 
that every person in attendance and watching and the press who 
are writing about this leave with a very crystal clear 
understanding of when this will be fixed, how it will be fixed, 
and the mechanisms by which we can hold one another 
accountable.
    I'll just add that in the reporting that I read in the 
Washington Post, the spokesman for the VA, Mr. Cashour, blames 
the VA Committee, says that we have not funded the VA's IT 
needs. If that's the case, I'm happy and hopefully can work 
with the Chairman and the Chairman of the Full Committee to 
introduce something on an emergency basis to get the funding 
necessary. But my understanding is that we had authorized and 
appropriated what the VA had asked for so far.
    If there's more that we can do on our side, in other words, 
I'm all in. And I want to know exactly what that is right now. 
I have weeks left in my term in my service on this Committee. I 
want to make the most of them.
    And I think I speak for everyone in saying that we're all 
frustrated and want to see something happen. Let's use this 
meeting today to make that happen.
    So to whatever degree you can strip down your testimony to 
the when, the how, and the what, and make sure that we have 
precise deliverables, the more grateful I will be and the 
better chances that we'll be able to deliver something to the 
veterans who are waiting on us right now.
    Thank you, Mr. Chairman.
    Mr. Arrington. I thank the Ranking Member.
    I now invite our first and only panel to the table. But 
before I make those introductions, I asked unanimous consent 
that our colleague Mr. Coffman and our colleague Mr. Bergman be 
allowed to sit at the dais and ask questions during today's 
hearing.
    Without objection, so ordered. And also want to again 
extent a special thanks to our Chairman for being here and 
being engaged in this as well.
    With us today we welcome the honorable Dr. Paul Lawrence, 
the Under Secretary of Benefits. Dr. Lawrence is accompanied by 
General Robert Worley, Director of VA's Education Service; Mr. 
Bill James, Deputy Assistant Secretary for Development and 
Operations at the VA Office of Information and Technology; and 
Mr. John J. Jack Galvin, Associate Deputy Assistant Secretary 
for Information Technology, Operations and Services at the VA 
Office of Information and Technology. We also welcome Mr. 
Richard Crowe, Senior Vice President at Booze Allen Hamilton.
    Thanks again for being here, folks. If you could please 
stand, I'd like to begin by swearing you guys in here. We're 
asking that you take an oath.
    [Witnesses sworn.]
    Mr. Arrington. And if you would reply I do.
    Thank you.
    Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    Dr. Lawrence, thank you again for being here. You are now 
recognized for 5 minutes.

         STATEMENT OF HONORABLE PAUL R. LAWRENCE, PH.D.

    Mr. Lawrence. Good afternoon Chairman Arrington, Ranking 
Member O'Rourke, and Members of the Subcommittee, thank you for 
inviting us here today to discuss the implementation of the 
Forever GI Bill.
    The Forever GI Bill requires we develop new software which 
changes the way the monthly housing allowance is paid. The 
development and the deployment of the new software has not gone 
as planned. We did not meet the August 1 deadline, and we are 
continuing to work on getting this right.
    But let me explain this delay briefly. Historically, we've 
used the school's facility code to identify the location. Our 
software linked the student to the main campus of the school 
and used the facility code to identify the amount to be paid. 
The new legislation recognizes that a student could earn 
multiple credits at different locations. In addition to 
locations such as branch campuses, this could include 
internships, externships, and practicums, none of which have 
facility codes. ZIP Codes of all locations where students earn 
credits were selected as the new way to identify these new 
locations. In addition, the possibility that the student would 
be in multiple locations required the computation of where he 
or she earned most of the credits and pay the allowance based 
on that location.
    The replacement of the facility codes with ZIP Codes and 
the introduction of new computations for the allowance brought 
increased complexity. In addition, ZIP Codes were coded into 
the--were to be coded into multiple existing systems which made 
the situation far more complicated than originally estimated.
    We are planning for the possibility that we may not have 
the new software ready for the spring semester. Should that 
happen, we'll be prepared to process claims as we have been 
doing to ensure students will continue to receive their 
allowances and schools will receive their tuition payments. We 
would continue to do that for as long as necessary.
    Before I conclude, I'd like to make three brief additional 
points. Point one. To date, since the passage of the Forever GI 
Bill, we've implemented 28 of the 30 provisions due by the end 
of fiscal year 2018. This fall, 450,000 veterans went to school 
using the GI Bill. The allegation of widespread veteran 
homelessness due to missed payments is false.
    Point two. Today we have 73,000 claims in the work queue. 
Not all involve payments. Some are initial applications or 
change of programs. Others involve payments to veterans, 
schools, or both. On average, on any given day, only 1 percent 
of these claims are greater than 60 days old. We work closely 
and continuously to monitor and prioritize these claims 
carefully.
    And point three. Any veteran who experienced a hardship 
will receive expedited processing. They can do this by calling 
1-888-GIBill1. Again, 888-GI-Bill1.
    We know the Forever GI Bill is incredibly important to 
everyone: Veterans, students, Congress, VSOs, the VA, and our 
VBA team.
    The first priority I articulated when I came to VBA was 
that veterans should earn the benefits--receive the benefits 
they've earned in a manner that honors their service. What they 
are experiencing now with the GI Bill does not meet this high 
standard. Our VA team is committed to changing that.
    Thank you, Chairman Arrington, Ranking Member O'Rourke. 
This concludes my testimony. I look forward to answering 
questions the Subcommittee has.

    [The prepared statement of Paul Lawrence appears in the 
Appendix]

    Mr. Arrington. Thank you, Dr. Lawrence.
    Mr. Crowe, you're now Recognized for 5 minutes.

                   STATEMENT OF RICHARD CROWE

    Mr. Crowe. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, and Members of the Subcommittee. I'm Richard 
Crowe, a senior vice president at Booze Allen Hamilton and the 
client service officer for Booze Allen's health account. I am 
pleased to be here with you today to discuss the continued 
implementation of the Harry W. Colmery Veterans Education 
Assistance Act of 2017, the Colmery Act.
    Booze Allen's commitment to serving our Nation's veterans 
is strongly embedded in our culture. Booze Allen was founded by 
a veteran, and we have supported the Department of Veterans 
Affairs continuously since 1952.
    Approximately one-third of Booze Allen's over 24,000 
employees are military connected. That means they're either a 
veteran, in the Reserves, the National Guard, or a military 
spouse. And we invest heavily in helping our military connected 
employees through career building, benefits, and formal 
military spousal support programs.
    Booze Allen currently supports Colmery Act implementation, 
a part of its contract with the Department of Veterans Affairs, 
for the benefits integration platform. In Booze Allen's role as 
the software developer, we are responsible for translating each 
of the VA's identified requirements and to software code. The 
VA takes the lead in mapping and determining the results for 
each user case based upon the VA's interpretation of the 
relevant statute, regulations, policy, and business rules 
associated with the benefits programs themselves.
    As software developers, it's our job to ensure that the 
code produces the desired results. Booze Allen appreciates this 
opportunity to discuss the decision not to go live with the 
Colmery Act Sections 107 and 501 updates by August 1 of this 
year.
    Simply stated, the heavy volume of changes to the 
department's business rules shifted the way in which housing 
allowances are paid in a manner that introduced more variables. 
The Colmery Act provisions require both new business rules and 
new policy determinations by the VA to meet the new law. As a 
result, we rewrote 60 percent of the code for the long-term 
solution system we are charged with modernizing.
    From Booze Allen's vantage point, two of the primary 
factors driving the timeframe for implementation of the revised 
rules have been the heavy and necessary reliance on other 
legacy IT systems outside of our control as well as the old age 
of the underlying IT systems.
    Since no single database contains all the information 
required to assess benefits eligibility, we must obtain the 
necessary data from four other VA legacy IT systems that are 
outside the Booze Allen's contractual responsibility. We rely 
heavily on the VA and its contractors with responsibility over 
these legacy systems to navigate the data integration 
challenges posed by these systems dependencies.
    From an age perspective, many of these underlying systems 
are passed, at, or very near their intended dates for 
retirement. As a result, we have had to program an elaborate 
set of interfaces to draw from these different and dated 
systems. These workarounds are time-consuming data intensive, 
and have required further system design, coordinated testing, 
and requirements validation.
    In summary, from Booze Allen's perspective, the challenges 
we have faced involved endeavoring to build something new on 
top of something very old.
    Despite these challenges, I'd be remiss not to highlight 
many of the key successes of the program. We have helped the VA 
achieve greater efficiencies and implement best practices 
during this release process that will improve the overall 
efficiency of this process moving forward.
    Further, in parallel to this effort, we had been working 
with the VA to implement the modernization plans in other areas 
that continue to drive toward the VA's goals of a modern micro 
services-based technology stack.
    In short, we've been helping the VA reduce the obstacles 
encountered here for the benefit of all future modernization 
efforts in the esteemed veteran population we collectively 
served.
    I look forward to discussing these successes as well as 
these challenges in greater detail with the Subcommittee. For 
me, there's nothing more professionally rewarding than helping 
the Veterans Affairs transform their technology as to make it 
easier for our Nation's veterans to access the benefits they 
have earned and so richly deserve.
    We look forward to continuing to provide support to the 
Department of Veterans Affairs as they enhance education 
benefits for veterans, servicemembers, families, and survivors 
through the implementation of the Colmery Act.
    Thank you for the opportunity to testify before the 
Subcommittee today. I look forward to your questions.

    [The prepared statement of Richard Crowe appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Crowe.
    I now yield myself 5 minutes for questions.
    Dr. Lawrence or General Worley, how many veterans--student 
veterans have still not received payment at this point, full 
payment, housing stipend related payments?
    Mr. Worley. Mr. Chairman, at this point, I would 
characterize the pending inventory, the work queue that we're 
talking about, at 73,000 as fairly normal and manageable work 
queue. So there shouldn't be anybody at this point, you know, 
with late payments per se. We're continuing to work those that 
we heard have hardships and addressing those immediately, but 
we're at a relatively normal inventory today.
    Mr. Arrington. So 73,000 student veterans have not received 
payment yet?
    Mr. Worley. No, sir.
    Mr. Arrington. Okay.
    Mr. Worley. The 73,000 number, as Dr. Lawrence articulated, 
represents claims that could be 1 day old or greater than 60 
days old. So it's the whole range of our work queue that is 
pending for our claims examiners to work on.
    Of those, you know, most of them are less than 30 days old. 
And so that's the work queue that people need to work on. And 
some of those don't involve payments. They're just changes to a 
program or they're original claims that don't involve a 
payment. And then others do involve payments to schools or 
veterans.
    Mr. Arrington. Dr. Lawrence, I heard the gentleman from 
Booze Allen mention legacy systems. I heard you talk about 
codes and ZIP Codes and other codes.
    And do you think the fact that there are antiquated systems 
in place, may be unnecessary, may be duplicative, but certainly 
older systems? Is that part of the problem here?
    Mr. Lawrence. Sure. Yes, sir.
    I think the problem is a couple fold. I tried to explain in 
my opening statement sort of the new business problem that was 
introduced with the housing allowance. In addition, as Mr. 
Crowe pointed out, we are using legacy systems. And it's not 
plug and play. It's very complicated. Part of the reason Mr. 
James is here from OIT to help explain this. And maybe you can 
jump in and--
    Mr. James. Sure.
    Chairman, I'm putting up a chart here. And that's basically 
the education engine, if you will, the education IT engine. And 
you can see all the different parts and pieces and boxes on 
there.
    The yellow box at the bottom in the middle there, that's 
the LTS box, and that's the one that Rich Crowe here was 
talking about where most of the Booze Allen work--in fact, all 
of it--has been focused on.
    But the surrounding boxes on that chart, on that engine, 
those are all the legacy, the old legacy components. Some of 
them are 50 years old, for example. The BDN is an example of 
the 50 years old code.
    Mr. Arrington. And let me just ask you to answer, because 
I'm going to run out of time before you get through that chart, 
I guarantee you.
    But the legacy issues, the boxes around there that aren't 
plugging and playing with the fixes that Mr. Crowe and his 
outfitter are trying to implement to get this provision 
implemented, why are they legacy issues? Why are those boxes 
not up to date?
    I know that I've been on this Committee now 2 years, my 
first full term, and we have spent hundreds of millions of 
dollars on IT solutions. Why are those still problematic? 
That's a lot of boxes around that yellow box.
    Mr. James. Right. Yes. Chairman, that system is complex. 
That engine is old, and they--
    Mr. Arrington. Why is it, though? I guess my question is, 
if we've given the resources to the VA to implement IT 
solutions that work so that we can get these good reform bills, 
these bipartisan reform fixes and solutions to help our 
veterans, but they get stalled out on account, what do you need 
if it's not the hundreds of millions of dollars that we've--
that the taxpayers have so generously given you to serve the 
veterans? What else do you need?
    Mr. James. Yes. I understand the question, Chairman.
    We had a broad modernization effort in place called the 
Benefits Integration Platform, or BIP, which was to modernize 
the whole engine, all the pieces on that engine.
    Mr. Arrington. When?
    Mr. James. That was prior to passing of Colmery Act. When 
Colmery Act passed, what effectively happened was, if you take 
that LTS as the carburetor, Colmery Act said, hey, build a fuel 
injector with 450,000 parts that plugs into that engine. The 
rest of the engine hasn't been changed, but the LTS part is the 
modernization. So we shifted from broad modernization to focus 
on Colmery Act, because we had a deadline to achieve.
    Mr. Arrington. So with all that understood and the 
challenges that were recognized, I'm sure early before we even 
ventured to implement this section, this provision of the new 
GI Bill, Dr. Lawrence and General Worley, why give us a 
timeline that said we'd be ready for the fall or we'd be ready 
in another 30 days? Why not say we may never--it may be a year 
because of the legacy issues? You all should know, when you're 
trying to pass this legislation, that it may be a year before 
the veteran ever sees an efficient implementation of this.
    And when you--after you answer that, I'm going to then 
defer to my Ranking Member for 5 minutes and comments and 
questions he might have.
    Mr. Lawrence. That was unfortunate, and you are correct. 
That was a mistake to give you a date. We did not understand 
the certainty around it which is why now we are not giving you 
a date. So to address the Ranking Member's concerns, you will 
not leave this hearing with a date. Because as we told you in 
mid-September, we were in the testing part of this work. And 
when we would not give a date until we had certainty, in part, 
based on our learnings from this experience as well as our 
understanding that the problem had grown more complex.
    Mr. Arrington. I defer now to Mr. O'Rourke for 5 minutes.
    Mr. O'Rourke. Dr. Lawrence, not very encouraging.
    I think in your testimony you failed to account for the 
scope of the problem, minimized the problem, and tried to 
remind us that, you know, VBA is doing great work in many 
cases, which I don't think anyone here would contest.
    But there's the very real problem that veterans who have 
earned this benefit are not receiving the payments that they 
need to complete their education.
    I'd love to have some specifics, and I will challenge you 
to give us a deadline just because you all missed the last 
deadline even though we met with you 2 weeks before that 
deadline where I think you could have shown a little bit more 
candor. It doesn't mean that you don't get to have a deadline 
going forward. That's a recipe for disaster if I've ever heard 
one.
    How many veterans have outstanding payments greater than 30 
days?
    Mr. Worley. Ranking Member O'Rourke, I have a greater-than-
60-day number. For today, it's a thousand claims that are 
pending over 60 days.
    As you can understand, each day it's a different number 
because some become over 60 days and some get worked, many get 
worked. We've worked many thousands of claims in that ballpark. 
We focused on the older claims, especially over the last 2 
months, to make sure we get those down. And those numbers have 
come down over time.
    Mr. O'Rourke. Why do you not have over 30 days? Why can't 
you give me that number?
    Mr. Worley. If you'll give me a minute, I might have it.
    Mr. O'Rourke. Okay.
    It seems like a question we would anticipate. We're trying 
to--you know, again, it's minimized by saying there are a lot 
of them who are only a day old, 2 days old in the system. I 
think we all get that.
    What we want to know is what the problem is, what the 
universe of that problem is and how you're going to fix it.
    So I'd love to know how we're going to help those who are 
waiting more than 60 days, which is a thousand, you said. I'd 
love to know the number for greater than 30 days, how we're 
going to help them, how soon we're going to help them, what 
your deadline is to help them. And then how we can be assured 
that those who are under 30 days will not be over 30 days going 
forward. What's the plan to do that?
    Mr. Worley. It looks like, as of today, we have a little 
over 10,000 that are between a 31- and 60-day mark. And the 
plan going forward is to continue our overtime work, continue 
to have the improved processing provided by 200 additional 
processors. We're focusing, as I said, on the old work first. 
We're handling hardships as they come in. And that's the 
ongoing effort that we've gone through since October--or since 
the peak of this fall, which was 207,000 claims on September 
14. We've reduced the inventory by 64 percent.
    So we've brought it down continuously since that time. 
We're in normal processing range now. And our timeliness is 
very close to our targets, which is 28 days for original claims 
and 14 days for supplemental claims.
    Mr. O'Rourke. General Worley, in the backup that I 
received, we show a 27 percent increase in pending end products 
as compared to the previous year on this date.
    You said it was a comparable caseload. Is that 27 percent 
increase correct?
    Mr. Worley. It is correct. And, Mr. O'Rourke--and I would 
just characterize that by saying a normal--in the past 5--6 
years, actually, since automation was put into place with long-
term solution in September of 2012, our peak periods in the 
fall and in the spring are manageable peaks. They're somewhere 
between 100,000 and 150,000 is where we get to the peak. Yes, 
there's a few days additional in our timeliness. But people 
don't miss payments, for the most part.
    So when I say we're manageable today even though it's 27 
percent higher than last year, again, we're in the 73,000 range 
right now of our work queue, and that's something that we can 
maintain our timeliness with the workforce we have.
    Mr. O'Rourke. General Worley, do you have an idea of how 
many students have not been able to enroll in classes because 
they have not received tuition payments?
    I'm assuming when you mentioned hardship cases, that would 
fall under that category, or urgent cases.
    Mr. Worley. Most of the urgent cases we received seem to be 
issues related to housing or potential eviction. We've received 
very few what I would call confirmed cases of anyone actually 
being evicted and very few--actually, I don't know of any cases 
where someone that has come to my attention where someone has 
not been able to enroll in school.
    We went out to the schools with a communication asking them 
to understand that they would be paid and to not take--you 
know, not to penalize the veterans going to their schools.
    Mr. O'Rourke. Thank you.
    Mr. Arrington. I thank the Ranking Member and now recognize 
our Chairman, Dr. Phil Roe, for 5 minutes.
    Mr. Roe. I'll yield to--I'm just--
    Mr. Arrington. The Chairman now yields 5 minutes to Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. Thank 
you, Mr. Chairman. I appreciate it very much.
    Dr. Lawrence, these problems have been ongoing since the 
beginning of the semester. We're almost at the end of the fall 
semester.
    And most students in schools are already planning for 
spring semester. It's my understanding that the VA will have to 
go back, rework, and verify hundreds of thousands of claims 
once the LTS modifications are complete.
    What steps is the VA taking to ensure that the reworking of 
these claims will not have a lasting impact on spring semester 
claims?
    Mr. Lawrence. You have it exactly right, sir. When the new 
software works, we'll have to go back and recompute everybody 
who was in fall, and we'll have to do the reconciliation you 
spoke about.
    In our modeling, what we sought to do is figure out how we 
will balance that with the spring semester so we don't have the 
problems we ran into that Mr. Worley just described. So our 
anticipation is that when it goes live, we will actually sit 
down and do the computations you're describing to figure out 
how it does not affect the spring semester. That's correct.
    Mr. Bilirakis. So what will it be as far as the 
modifications--
    Mr. Lawrence. Excuse me?
    Mr. Bilirakis [continued]. --say on January 1?
    Mr. Lawrence. I'm sorry. I missed--
    Mr. Bilirakis. As far as the modifications, where do you 
think we--where do you expect to be let's say on January 1, the 
beginning of next semester?
    Mr. Lawrence. Right now, given where we are in the testing 
process and our inability to understand exactly when the 
testing will be complete, I'm estimating right now, which will 
be subject to our--continued through testing, that we'll be 
processing manually, and we will not have done those 
reconciliations yet.
    Mr. Bilirakis. So that will be your backup plan.
    Mr. Lawrence. That will be the plan we'll execute pending 
the completion of the software.
    Mr. Bilirakis. Okay. There's so much uncertainty among our 
students, our heroes, our veterans. Given the delays that have 
already occurred, do you expect the same type of delays we saw 
earlier this year? And as a follow-up, I--go ahead. Do you 
expect the type of delays that we saw this year?
    Mr. Lawrence. No, I do not.
    Mr. Bilirakis. Because I think they're unacceptable.
    Mr. Lawrence. No, I do not expect those delays in the 
spring. In this fall what happened was we waited for the 
technology, which did not arrive, as you've been kind enough to 
point out. We then allowed the schools to enroll receiving all 
the work that would have happened through the late summer and 
early fall at one time. This caused the backlog that led to the 
delays everybody's described.
    Presently, we're not planning to wait. If we do not have 
the software in place soon, we'll open the enrollment for the 
spring semester, and it will happen just like Mr. Worley 
described per our normal cadence, and we'll manage it like 
we've always done, and it will be a regular process. The 
communications will be, again, a regular and consistent 
explaining this to everybody.
    Mr. Bilirakis. Okay. I have a bill, H.R. 4830, the SIT-REP 
Act, that passed the House. And what it does is take the 
pressure off the veterans and makes sure that these 
universities, whether they're vocational universities, 
community colleges, do not put pressure on the veterans, 
because I understand that they have been, to a certain extent, 
putting pressure on them to get loans, to pay off--and we're 
talking about--you know, I know we're talking about housing 
allowance as well, but the tuitions.
    And I recommend that the Senate move on that quickly, 
because I don't want to put pressure on them. They've got 
enough problems transitioning into the private sector.
    And, again, we've got to do everything for our veterans.
    So I don't know what your opinion is on that particular 
bill, but you're welcome to give it, if you'd like.
    Mr. Lawrence. I understand we support it. We support 
anything that helps veterans.
    Mr. Bilirakis. All right. Very good.
    Thank you. I yield back, Mr. Chairman.
    Mr. Arrington. Thank you, Mr. Bilirakis.
    The Chairman now yields 5 minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Before this hearing, I had a chance to review the 
transcript of the last hearing we had on this issue in July 
where Chairman Arrington repeatedly asked VA if it had 
everything it needed to be ready in time. And the answer was 
that, despite the heavy lift, VA was prepared for any glitches. 
Obviously that was not the case.
    It was a huge bipartisan effort to make these changes to 
better serve veterans and to make sure that we gave VA 
everything it asked for. So it is frustrating to be here. And 
as Chairman Arrington said, resources were offered and have 
been given in copious amounts. So it's frustrating to be here 
looking at this massive failure after everything that this 
Committee and Congress did.
    So, Dr. Lawrence, it seems to me that ultimately all of 
these problems stem from an IT failure whether it's aging 
infrastructure, bandwidth issues, inadequate user scenarios 
that you provided to Booze Allen. It all stems back to IT. And 
we're in the mess here because of--because the IT doesn't work. 
Is that a fair characterization?
    Mr. Lawrence. A couple comments, sir.
    It's frustrating for all of us, not just you on that side 
of the table. We know it's frustrating for veterans. I think 
everybody's working very hard. IT is no doubt part of what we 
do, but it's a very complicated thing that we're undertaking, 
the analogy of the carburetor. IT plays a large component, but 
it's a group effort, sir.
    Mr. Takano. Well, wait a minute. What part's IT and what 
part's the group?
    Mr. Lawrence. The group effort is obviously we have to 
translate the requirements into things for the coders to do, so 
we need to make sure those are right. We've got to run the 
tests carefully. We've got to review the tests to make sure we 
understand the difference scenarios. We got to get the IT 
right.
    Mr. Takano. If I might just interrupt, so it's not 
antiquated machinery. It's not--
    Mr. Lawrence. It's all a part of it, sir.
    Mr. Takano. It's all part of it.
    So your IT--so there's a management component. There was 
project management issues--
    Mr. Lawrence. That's correct.
    Mr. Takano [continued]. --by the team.
    All right. But ultimately it's IT. It's all sort of in the 
realm of IT, whether it's the personnel related to IT or the 
machines that are out of date or the misguidance that was given 
to your contractor.
    So given that it's all in the IT space, you're here from 
educational services, right?
    Mr. Lawrence. I'm the undersecretary of benefits, sir. I'm 
responsible for all benefits.
    Mr. Takano. Benefits? Okay. Benefits.
    All right. Well, my question is why isn't the--why isn't 
the head of VA IT here? Why isn't he here to explain or take 
accountability or responsibility for this failure, Mr. 
Sandoval?
    Mr. Lawrence. I work very closely with Mr. Sandoval. He 
suggested Mr. James and Jack show up because of their 
relationship with the software and the infrastructure which we 
thought would be the bulk of what we would talk about today.
    Mr. Takano. Still, he's the guy that's--where the buck 
stops. I don't understand where he's not here.
    You know, I don't expect you have an answer. But I just 
want to point out, Mr. Chairman, that I am befuddled as to why 
an IT debacle--you send the project managers but you don't send 
the person for whom the major responsibilities whose shoulder 
lies.
    All right. During a modernization board meeting last 
Friday, the education services team was asked if there was 
anything that could have been done differently to have 
prevented this from happening, and the answer was no. That 
answer implies that VA does not believe that they make any 
mistakes or did anything wrong.
    Now, I don't know how VA could represent that in that 
meeting when so many student veterans have been harmed so 
severely by these failures. So I'd like it ask you today: If 
you were to start this process again, what would you have done 
differently beyond not telling the Committee that you could 
have gotten this done by a certain deadline?
    Mr. Lawrence. Let's--a couple things, sir. At the 
modernization board, I remember that was said. It was repeated 
to me. I was not at the meeting. I was actually working on this 
problem in front of us now.
    I wish what he had said is we haven't had time yet to 
digest the full range of experience--
    Mr. Takano. But it was your team.
    Mr. Lawrence. I understand. And what I wish they had said 
was--we've been so focused on completing the problem at hand, 
we haven't had time to digest the whole--and answer that 
question adequately.
    Mr. Takano. Let me switch up my question, because I don't 
want to, like--I mean, re-ask--I mean, obviously, mistakes were 
made and people made mistakes.
    But going forward, in order to get--I know you don't want 
to give us a timeline. But I think--I want to challenge you, as 
the Ranking Member has challenged you, to come up with a 
timeline. What do we need to do? What do you need from us? 
Anything more that you need from us?
    I mean, it's embarrassing--you know, I think it's 
embarrassing that--for you to ask after all that we've given 
you, but what do we need to do? How do we--what do we need to 
support you in making this right?
    Mr. Worley. I would just say, congressman, that--in terms 
of what to do differently. As Dr. Lawrence described, the 
reason we had the high peak numbers for the fall was that 
planning on a successful IT deployment in July. We told schools 
to hold their enrollments where there were multiple campuses 
involved so as to avoid extra work for both the schools and the 
VA.
    When we released their--the ability for them and told them 
go ahead and send them in July, we got 6 months of work in 
about 2 months. So one thing we're going to do is not do that 
again for the spring semester to make sure that we have the 
normal flow of receipts through the spring and we can address 
them.
    And if I could take one more minute to illustrate the 
complexity of Section 501 and 107 of the Colmery Act.
    Under Section 501, you could have three students sitting in 
a classroom. All GI Bill students going to the same class at 
the same time getting three different housing allowances just 
as it relates to Section 501 because of when they started to 
use their benefits.
    Add on top of that, if the three of them were taking a 
majority of their classes in different locations, yet, again, 
they would have a different housing allowance. These are some 
of the kinds of scenarios that make this a very complex problem 
to solve.
    Mr. Takano. Mr. Chairman, I apologize for going over.
    I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    I now yield 5 minutes to the gentleman from Indiana, Mr. 
Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Dr. Lawrence and General Worley, I appreciate you attending 
this hearing and taking responsibility for these problems, 
which seem to hinge on legacy system integration issues. 
Without a doubt, everyone's main concern is that student 
veterans receive the benefits they have earned and that their 
lives are not disrupted.
    But I am also concerned with why the system glitches keep 
happening. Many of VA's IT systems are decades old, disjoined, 
and written in outdated software language. BDN, LTS, and the 
related educational and housing benefit systems are more the 
rule than the exception.
    Mr. James and Mr. Galvin, I have not had the opportunity to 
meet you yet, but I know it will not surprise you that this is 
very similar to the issues that we are examining with the 
Technology Modernization Subcommittee.
    Mr. Crowe, as you know, your company is the lead support 
contractor to VA in the EHR modernization program. I am 
concerned that VA does not seem to have the capacity or maybe 
the strategy in place to handle these modernizations. You seem 
to dive in without a solid understanding of all the 
dependencies and touch points in these legacy systems. So you 
wind up inventing and reinventing the plan throughout the 
project every single time. As if no one looks under the hood of 
these systems for years and years until suddenly you are in 
there rewiring them like we are today.
    We have to build up the capacity and change the strategy, 
or this will happen again and again and again. I think the IT 
system for the caregiver expansion is probably next.
    So to get to my question. Dr. Lawrence, VA's contract with 
Booze Allen originally required that, quote, each build shall 
be 3 months or less. That means delivering a completed 
functional piece of software every 3 months. Maybe not the 
entire software package but a piece that can be used. But in 
April of this year, VA and Booze Allen agreed to change that 
contract language by adding, quote, unless otherwise agreed 
upon by the government and the contractor.
    Why did you do that?
    Mr. Lawrence. I'm going to defer to Bill, because he's 
closer to the IT contract.
    Mr. James. Congressman, I don't have the details on the why 
that happened. I'd like to take that for record to understand 
and give you a perfect answer.
    Mr. Banks. Okay. So it's the answer I expected.
    So when the original deadline or expectation when the 
system modification implement Section 107, when was that the 
original deadline or expectation of when the system 
modification's implement Section 107 that they would be 
completed?
    What was your original--
    Mr. Worley. Our original plan was July 16 to deploy the 
software. And as we testified in July, at that time, we had 
realized--
    Mr. Banks. So July 2018.
    Mr. Worley. Yes, sir.
    Mr. Banks. So what did the VA already know in April that 
motivated you to undo the requirements that software be 
delivered in 3 months?
    Mr. James. Congressman, I don't have an answer for that.
    Mr. Banks. Okay. That's what I expected too.
    So the language I quoted clearly does pertain to the work 
that we are discussing today. It comes from line item 4001 in 
your contract which you have so far funded as $69 million.
    Do you want to comment on that?
    Mr. James. Funded at the tune of 69 million for that line 
item? Is that your suggestion? Because--
    Mr. Banks. Is that your understanding as well?
    Mr. James. I don't know about the budget--or the funding 
for it, but I believe we've paid out 647,000 to date on that 
line item.
    Mr. Banks. Okay. Well, we'll dig into that even more.
    So, Mr. Chairman, I think this might be a what did they 
know and when did they know it type of question. And I've got 
more questions for round two. But with that, I'll yield back.
    Mr. Arrington. Thank you, Mr. Banks.
    We now yield 5 minutes to Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. I want to thank you 
for holding this most important hearing. And as I'm listening 
to all of this, the history, I'm asking myself and the 
Committee, are we destined to live with these IT failures 
irrespective of how much money taxpayers dollars we invest, try 
to take care of our men and women who are coming back after 
serving our country.
    Gentlemen, this last weekend I was at an opening of a vet 
center in my district, Chapman University. Young men coming 
back from fighting for our country ready to get their 
education. And I'll tell you, walking in with this scenario, 
it's kind of embarrassing, and it's shameful, to me and I think 
to us.
    You talk about a teamwork. You talk about your schematics 
teamwork. I hope we're part of that team when it comes to 
executing.
    So you gave us a July 16 deadline to come up with some 
solutions. I understand this is IT. It's very complex, as 
you've said. But I guess if we're part of a team, why did it 
take the Committee staff--you know, a visit by the Committee 
staff to Oklahoma to figure out that something was going on, 
something was not going right? Why didn't that information--why 
was that not conveyed to this Committee, that things were not 
on schedule?
    Mr. Lawrence. Since I arrived in May, part of what I've 
been doing is working closely with OI and T, is what are the 
technology challenges we faced. We identified that latency and 
the connectivity to our offices was the problem. Working with 
OIT, we first started by dealing with the way we communicate, 
call it the bandwidth, the pipes to the offices. We expanded 
those.
    When that didn't work, we noticed the software still locked 
up, as your staff discovered. We were in the process of 
examining why the software conflicted when your team went to 
visit. What they saw is what we knew what was going on and what 
we were working on. It would be inaccurate to say their visit 
motivated us to deal with it, because we were already dealing 
with it.
    Mr. Correa. But their visit was the way this Committee was 
made apprised or made--informed of the fact that things were 
not going well. I'm not saying you--you're hiding it from us, 
but you didn't tell us things were not going right.
    Mr. Lawrence. So--sure. I think in our regular 
conversations with you, we focused on the software development. 
And I think we were meeting almost weekly to explain to your 
team what we were doing. I believe the agenda was an hour long, 
and it focused on the software development of that. That was 
not included in the agenda, and it was an oversight--
    Mr. Correa. So if we don't include it in the agenda, you 
see that something's wrong, should you bring it up to our 
attention?
    Mr. Lawrence. Those are standard challenges we were dealing 
with. I would not be bringing those to you, because we were 
dealing with those. So you're part of the team, but we would 
escalate accordingly, and I thought the--
    Mr. Correa. Do you have a situation where students may have 
challenges? And in your words you--
    Mr. Lawrence. No, sir.
    Mr. Correa [continued].--false that any of their students 
having homeless issues.
    Mr. Lawrence. No, sir. Your team saw us struggling to 
process. But what they admitted and was pointed out, a 5-minute 
task was taking 45 minutes. Students weren't suffering. We were 
processing through overtime--
    Mr. Correa. To your knowledge, they're not suffering.
    Mr. Lawrence. No. I said that people have suffered because 
of the backlog that Mr. Worley described. But what your team 
saw was 5-minute tasks taking 45 minutes. That was our internal 
issue we were working.
    Mr. Correa. Should our teams also go to Buffalo and St. 
Louis to see if there are any issues in--
    Mr. Lawrence. There are the same issues there that we have 
addressed the same way. First by working on the bandwidth, then 
by deconflicting the software.
    Mr. Correa. If we are going to work as a team and yet we 
don't have this information, how can we be a better team?
    Mr. Lawrence. I'm perplexed about the lack of information. 
We regularly send to your staff weekly reports that I would 
consider management reports that you're welcome to delve into. 
And I personally am happy to come brief you on what you're 
seeing. You're seeing what our leaders are seeing in terms of 
our operational performance, so I'll be happy to come sit down 
and talk you through what--
    Mr. Correa. I would love to have you come talk to the 
Committee and essentially tell us those issues which you 
believe are coming forth. What are the challenges that are not 
being met, so to speak?
    Mr. Lawrence. Certainly. I'm happy to do that.
    Mr. Correa. What are the problems you're coming up with?
    Mr. Chairman, I yield.
    Mr. Arrington. Thank you, Mr. Correa.
    I now recognize Mr. Mast for 5 minutes.
    Mr. Mast. Thank you, Chairman.
    Let's move in the other direction of people not being paid.
    How many people do you anticipate are going to have 
disruptions in their lives as a result of being overpaid 
because of miscalculation?
    Mr. Worley. Thank you for the opportunity to address that. 
Because of the lack of our IT implementation, so we are paying 
incorrect housing to our beneficiaries. Depending on when they 
started school, some of those beneficiaries are receiving about 
$69 more than they should be getting, because we haven't 
applied the new DoD rate to them.
    Others who are existing students already are not receiving 
about a 1 percent--less than 1 percent increase that was 
implemented on--with the DoD rates, and--that should have been 
implemented August 1.
    So we don't have the breakout of the exact numbers, sir, on 
which of those are--you know, which is which. But as we have 
said, we will not go back and try to recover the overpayments 
once the IT fix is in. And where we have underpaid our 
beneficiaries, we will make them whole at the time the IT fix 
goes.
    Mr. Mast. So you expressed before that this is difficult. 
In the classroom, there can be a number of different scenarios. 
Somebody could be a distant student from this place but showing 
up for a one- or two-time class at some other place. Or they 
could live in one place but be attending courses in another 
location.
    Is there any parameters in which you're intending to claw 
back dollars from veteran students under any part of this that 
has gone on any of those situations of those numerous complex 
situations that you said can exist in any given classroom? Are 
there any situations that you intend to be--to claw back 
dollars?
    Mr. Worley. We will not claw back anything that is related 
to our lack of implementing Sections 107 and 501, sir.
    Mr. Mast. Have you written any letters to students alerting 
them to the fact that they may be being overpaid as we speak 
and that you do not intend to claw back dollars from them?
    Mr. Worley. Through September and October, we sent nearly 
an email a week to 35,000 schools and over 300,000 students 
telling them about the payment delays and letting them know 
that we would not--again, not establish debts against them.
    Mr. Mast. Let's move in a slightly different direction.
    You said already you don't intend to indicate the 
completion date, that it's very complex again.
    Can you tell us a little bit about the testing that's going 
on right now? How much of a priority is this testing? How many 
people do you have working on this issue?
    Mr. Crowe. We've turned over release candidate 27 on 
November 7. User acceptance testing is being conducted by the 
VA. As far as the staffing level of user accepting testing, 
that's a VA process, so I'd have to--
    Mr. Mast. Mr. Lawrence, how many people are working on 
testing?
    Mr. James. I think in total, including the contractors and 
the VA, we're about 100 people involved right now today, you 
know, testing, coding, fixing, working on all that software.
    Mr. Mast. All day? That's their sole function? They're 
working on this all day?
    Mr. Crowe. Yes, sir.
    We're--sir, we're also working through the weekend on this.
    Mr. Mast. Through the weekends as well?
    Mr. Crowe. Yes.
    Mr. Mast. Is there a school that you're currently testing 
somewhere that has live testing going on where this can be 
looked at to say it's working or not working well?
    Mr. Crowe. The way we're doing it, sir, is subject matter 
experts from the VA take the software through its paces, and 
they're really pushing it through real-world scenarios. I have 
software developers who are--
    Mr. Mast. Where are these real-world scenarios, Dr. 
Lawrence?
    Mr. Lawrence. They're written in user acceptance testing. 
They're use cases. They model the behavior students would be 
doing, as Rob pointed out, the different variations they would 
have. And we use them to test the software to make sure the 
results are as we would expect them to do.
    And when they don't go as we expect them to do, that's the 
testing part, we go back and talk about why that is and--
    Mr. Mast. And those schools being lived-tested right now.
    Mr. Lawrence. No. The schools--these are user--these are 
user--these are use cases that we've developed, so they're 
tested in our tested environment. They're based on the 
experience students would have.
    Mr. Mast. So there could still be problems once you 
actually put this into the live environment of various 
different schools around the country depending on what their IT 
infrastructure might exist--how their IT infrastructure--
    Mr. Lawrence. That is what we're trying to avoid, which is 
why this testing period is so time. We have a series of use 
cases that we want to pass so when what you're describing 
happens, it's such a small percentage of the total, we're able 
to deal with that.
    Mr. Mast. Thank you.
    I have one more question.
    Mr. Crowe, is there an additional bill coming from Booze 
Allen Hamilton, or do you plan on an additional bill coming 
from Booze Allen Hamilton for all of this additional testing 
and the extra man-hours and the extra people that you have to 
get to work on these issues?
    Mr. Crowe. So today, for our Section 501 and 107, we have 
not invoiced the VA. We continue to work against our funding 
line, and we're committed to getting this--getting this 
deployed to serve the veteran.
    Mr. Mast. Will you grant me one follow-on question here?
    Do you anticipate sending an additional bill?
    Mr. Crowe. For the functionality that was delivered now? 
No. If there's additional functionality that's requested, 
obviously we would have to look at it then.
    Mr. Mast. I yield back, Chairman.
    Mr. Arrington. Thank you, Mr. Mast.
    I now recognize Chairman Roe for 5 minutes.
    Mr. Roe. Thank you.
    One of the things that the VA has gotten right is they 
named this long-term solution right. That's appropriate. It's 
going to take a long time to get the solution, it looks like.
    Let me put this in real terms. A young soldier with a 2-
year-old, probably not three figures in a bank account, 
probably not three figures, not four, but probably not three, 
with a 1974 used Dodge Colt with a straight stick shift looking 
for the GI Bill to help him when he went back to school. That 
was me. And I got the money on time without all the computers, 
without all the nonsense. I got a check every month from the VA 
not a single hiccup, 1975.
    And today with all this technology and millions and 
millions and millions of dollars spent, Amazon has, by June of 
this year--by August of this year, I know, because a company in 
my district makes them, they sent out a billion articles to 
people and gotten, I think, probably most of it exactly right.
    And that's a frustration I have, that we've spent all this 
money and time, and we can't get a paycheck out to somebody.
    And I know Mr. Correa brought up something that I want to 
follow along.
    How many claims have we actually gotten right? As of right 
now when the school is in session, we've done hundreds--I know 
you guys have done hundreds of thousands of them. How many have 
been done right and correctly? How many schools got the right 
number? How many veterans got how--or many students got the 
right check?
    Mr. Worley. Chairman Roe, literally thousands upon 
thousands of our beneficiaries have received payments on time.
    Mr. Roe. And correct.
    Mr. Worley. And correct--well, no, not for the housing, 
because the new rates are not in the system. But otherwise, you 
know, like I said, some are getting paid over a little bit; 
some are a little bit less.
    Mr. Roe. Then let's go to that.
    This--because of this IT failure, this is not only--I mean, 
the Forever GI Bill is a tremendous bill. I think both sides of 
the aisle can take great pride in, and the country can take 
great pride in it. It was transformational after World War II.
    And I know to this day I appreciate the $300 a month that I 
got back in 1975 and 1976. I'm appreciative of that to this 
day. It helped me and my family a lot.
    But a lot of these people out there like I had with 
absolutely no money sweating the end of the month and sweating 
can I keep my apartment? Am I going to have enough to feed my 
kids and so forth?
    And how much money have we spent instead of getting those 
benefits to students in overtime and in IT? And that's what I 
want to know is how much money have we spent just implementing 
this because the system didn't work?
    And I want to follow that up, Mr. Crowe, with this question 
to you is what is your assessment of the LTS modifications, and 
do you believe that you have delivered the product that you're 
required to produce?
    Mr. Crowe. Thank you, sir. We delivered--on July 27th, we 
delivered release candidate 18, which satisfied the 
requirements at the time that we were asked to deliver. And at 
that time, we believed it to be, based on our understanding of 
the software, defect-free. The VA was testing. User acceptance 
testing began in June. They are continuing to do testing. We 
were marching towards an August 1st delivery date, and what--
you know, subsequent testing identified new issues with the 
software largely around variations of these user cases as, you 
know, I think Mr. Mast even mentioned all the different 
permutations of housing.
    Subsequent to that, I think very prudently, the VA took a 
pause to reassess requirements and see if there was additional 
functionality, which yielded 83 new user cases, which we go to. 
We delivered that software on November 7th and released 
candidate number--released candidate 27. That has been under 
testing since November 7th. As of 2:53 today, there is no 
critical defects with that software.
    Mr. Roe. Okay. And, Mr. James, if Mr. Crowe believes that 
the product is ready, you've been given the user acceptance 
testing now for, I guess, a week or two, why is the system not 
ready? And are there other bugs in there that VA or Booz Allen 
need to fix?
    Mr. James. Thank you, Chairman. So that module may be ready 
from, you know, the perspective of meeting its specifications. 
But what happens now is that the surrounding modules that we 
saw on that diagram, they now have to be changed to get the 
bugs out that, you know, are reflective of the new carburetor 
we just installed. So there are issues in one of those systems 
called VA-ONCE, and there are issues in WEAMS that were 
discovered in user testing at the end of October.
    So now, those surrounding systems have to be fixed, and 
once you fix those, you're going to have to regression test the 
module that Rich just talked about. So--
    Mr. Roe. Well, we have no--we have no earthly idea when 
this is going to be ready. And so I guess the thing, the 
takeaway I want for students out there watching, or in school 
today, what can they expect mid-January when they go back to 
class after the Christmas break, when they go to--can we sit 
here with a straight face and tell these students that your 
school's going to get paid and you're going to get your check 
in a timely fashion? Can we say that to them now today?
    Mr. Lawrence. The answer to that question is yes. As Mr. 
Worley just pointed out, what you're not getting, as long as 
this software is not done, is the new housing allowance per the 
new GI Bill. That's what's different. You're getting the old 
payment, but you are getting a payment. You are able to go to 
school and your school will be paid.
    Mr. Roe. At the end of the day--and I'll yield back. I'm 
sorry for going over. At the end of the day, I want to know how 
much this overtime and how much this payment, that we're not 
going to claw back, has cost the taxpayers.
    Mr. Arrington. We will follow up on that. Thank you, Mr. 
Chairman.
    And we now recognize Mr. Coffman for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    If I can go back, Dr. Lawrence, to what you just mentioned 
in the old payment versus the new payment. The old payment 
versus the location of the institution, the school, versus the 
new payment, which is far more complicated. Could be multiple 
institutions, each with varying amounts. But--but what you said 
was that they're receiving payment on the old system. But my 
concern is not the institution--not the school, but it's the 
veteran on the housing side, in particular. Usually, I know 
property management firms, having been in the business, give 
about a 5-day grace period at the beginning of the month for 
the payment of rent. And so--and these are renters, they're 
not--I--I went to school on the GI Bill, not homeowners.
    And so tell me about--let's drill down on the housing 
component of this--actually, the living component of this, 
because it's more than just housing to the veteran. And are 
they--so when you talk about the old payment versus the new 
payment, are they receiving the old payment, though, on a 
timely basis?
    Mr. Lawrence. Yes, that's--yes, that's what we've been 
describing, and I'll ask Mr. Worley to jump in here. This is 
where he talked about the new rates are, on average, 1 percent 
higher. So you're getting the old rates. Okay? Using the old 
computation.
    In addition, we've been very concerned about exactly the 
situation you're describing, which is why we identify expedited 
route to get payments. We work with VSOs, your staff, to 
identify anybody who would say, I'm in a--I'm in a hardship 
situation. We found about a thousand of those people. And I 
will tell you, every time we've looked where someone said 
there's widespread activity where people--we found that not to 
be true. So we are very concerned about this and are trying to 
get people paid exactly for that reason. But we are not finding 
that systematically happening.
    Mr. Coffman. Okay. But certainly, I admit that I've not 
received the volume of complaints in my office, but we 
certainly have read press stories about individuals not 
receiving anything on the housing side. Why don't you comment 
on that?
    Mr. Lawrence. We've looked at those stories, sir, and, you 
know, it's hard to speak more broadly, but I wouldn't talk 
specifically, when we've gone and found those, they are 
generally not true. We've tried to find--as Mr. Worley said, we 
have no confirmed cases of somebody being evicted. They've 
either not told us, but we found--there's a story today in The 
Washington Post that cites three veterans. We know the story of 
those three veterans. I cannot share them with you because it's 
personal information. But I'm more than happy to do so in 
private. And that story misrepresents the facts.
    Mr. Coffman. Okay. So it's the delta between the old system 
and the new system that they're not getting on a timely basis?
    Mr. Lawrence. That's correct.
    Mr. Coffman. Okay. But one thing, in going back, that I 
have a concern about, and hopefully we'll get this corrected 
going forward. How did this happen where we come up with 
legislation and we're relying upon the expertise of the 
Department of Veterans Affairs to tell us whether or not the 
implementation date, the effective date of the legislation is 
realistic or not? And so the Congress of the United States was 
not given accurate information as to the implementation. How 
did that happen?
    I mean, we rely on you to opine in hearings like this. I 
mean, you are given--the VA, the Department of Veterans 
Affairs, is always given an opportunity to comment on every 
single bill before this Committee, and your support, whether 
you support it, whether you don't support it, whether it's 
realistic on the implementation side or not realistic on the 
implementation side. And we were not given adequate 
information. But could you comment on that?
    Mr. Worley. If I could take that one, sir.
    Mr. Coffman. Sure.
    Mr. Worley. You're exactly right. We've--we've--as you 
know, first of all, the Forever GI Bill, the set of provisions 
was put together in record time and passed into law and signed 
into law in record time. When we commented on those provisions 
in support of the legislation, we tell--you know, we tell you 
all that--which provisions require significant IT work. And so 
I would suggest to you that we typically say we need at least a 
year, or about a year, to do IT work. We don't usually project 
beyond that. Because at the time we review these provisions, 
we're not sure exactly of the complete requirements that might 
go with it. So I would just--
    Mr. Coffman. What do you mean you're not sure about the 
complete requirements? How would you--how can you say that?
    Mr. Worley. Well, I would say that until you delve into the 
code, as we've described, you may not appreciate, especially 
when it comes to the housing calculation, which is fundamental 
in the--in the depth of the code of long-term solution, how 
many scenarios you could have. Once the provisions are passed, 
sir, we spend a lot of time with our general counsel and with 
your staffs making sure we understand the intent of Congress 
and the various interpretations that we might have to make as 
we implement this bill. We did this with every provision of the 
Colmery Act as we got ready to implement it.
    So there is new discovery sometimes between the time we 
have commented and supported legislation and give you views and 
costs, to the time it actually gets implemented.
    Mr. Coffman. I think there's just a disconnect here.
    Mr. Crowe, I mean, as a professional, an IT professional--I 
assume you are--couldn't you assess the complexity of this and 
how long it would take for its implementation?
    Mr. Crowe. Thank you for the question. We're software 
developers, and we rely on the VA for subject matter expertise 
in defining what the user requirements are. We defer to them 
for--for defining the policy, the rules, the statutes, in 
defining what the user cases are. And so we lean on them. This 
is one team. All right? We work very closely with them in 
requirements elaboration, starting in January through April, 
defining 11 of the 27 cases we continue to work on. We continue 
to refine cases, an additional 16 cases between April, indeed 
all the way up to July 12th, with user cases of scenarios.
    But to your question, Mr. Coffman, when we got--you know, I 
guess when user testing occurred, there are many, many--I guess 
the user acceptance testing realized that there were many, 
many, many more scenarios that they hadn't accounted for. And 
so, you know, that's--that's--you know, I would not be able to 
look into the future. We rely on subject matter expertise from 
the VA.
    Mr. Coffman. Mr. Chairman, if I can close with this. You 
know, this administration, the Trump administration, promised 
to clean up the culture of bureaucratic incompetence inside the 
VA. And based on this testimony today and other hearings we've 
had, I don't think they've made a lick of difference.
    I yield back.
    Mr. Arrington. Thank you, Mr. Coffman. I agree with you 
wholeheartedly. I associate myself with that comment and hope 
to elaborate on it before this hearing's over.
    The Chairman now recognizes and yields 5 minutes to Mr. 
Bergman, General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    It's been interesting to watch the game of whack-a-mole 
continue on. And we're all involved, because as the Committee, 
we're trying to take the mallet of fiscal, you know, capability 
and give it to the VA as the different moles, you know, whack-
a-moles, pop up. We watch you deal with the different criteria, 
the different software development challenges.
    My concern, if I can articulate it, is that if we don't to 
the 80-plus percent level agree on what the parameters are and 
the problems we're trying to solve, knowing that technology is 
going to change and what we have is cutting-edge technology 
today, tomorrow is going to be legacy, which we're going to 
spend more money funding, when the rate of technology changes 
to the point where now, do we have to spend more money keeping 
up with the rate of technological change? That's one of the 
challenges any business has. When you look at defense, 
especially when you're looking at things from weapons systems 
and all of that.
    Rate of technology change is always going to play a factor. 
What we're asking you, I believe, is give us that 80 percent 
level of change. You're only going to live in so many ZIP 
Codes. You're only going to take so many courses. You're only 
going to do this. Give us that 80 percent level and have the 
parameters set so that when you get it right to the 80 percent 
level, then the other 20 percent that is going to occur 
naturally, we minimize the continual cash outlay, we minimize 
the pain to the veterans that can occur just through a glitch.
    And one of the challenges we have is that when you try to 
pay your credit card personally, if you can't do it online, 
what do you got to do? Probably got to write a check, right? 
Because you want to get it paid so you don't have to pay the 
extra, you know, fee for a late payment. Somehow the VA has to 
have something in place to have that ability to help that 
veteran get that payment in a timely manner, when the eventual 
glitch comes. Again, you're talking a small percentage, but we 
have to have that backup capability. It should not be our go-
to.
    So would anybody at the table care to basically respond to 
my comment? Are we going to be able to get the 80 percent level 
correct so we're not chasing legacy--new technology legacy, new 
technology, and continuing to have to have Mr. Crowe and his 
software developers keep after that?
    Mr. James. Yes, Congressman. I think you articulated the 
modern way of doing software, which is define success up front 
and then, you know, work at that in bite-size pieces, you know, 
build a little, test a little, deploy a little. That's what we 
need to get to, to get out of this vicious cycle of maintenance 
and legacy software that we're in today.
    So there's a whole modernization effort that needs to 
update all those boxes on that chart to get to that level of 
modern, you know, software development. We're doing it today on 
this LTS piece. We need to do it with the other pieces on that 
chart, so--
    Mr. Bergman. Thank you. Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, General Bergman.
    I'm going to go for another round of questions for the 
Members who want to stay. I'm going to yield myself 5 more 
minutes and ask, General Worley, I must say, I've been 
impressed with you since I've taken this job, and I appreciate 
your professionalism. I have a sense of your sincere commitment 
to the veterans.
    Do you have control over the IT system software design, 
development, sort of overall IT services? Is that in your 
bailiwick?
    Mr. Worley. No, sir, not--not the development--
    Mr. Arrington. Well, for example, with this provision and 
its implementation, is that your job?
    Mr. Worley. Mr. Chairman, my job in this development, in 
any kind of development, is to define the user requirements.
    Mr. Arrington. Okay.
    Mr. Worley. And provide those to--
    Mr. Arrington. Have you done that?
    Mr. Worley. Yes, sir. We--
    Mr. Arrington. Do you think they're clear?
    Mr. Worley. We did that back in November, December--
    Mr. Arrington. Do you think they were clear, the user 
requirements? Did they receive those, and do you feel like 
they've been--
    Mr. Worley. We believe they were complete and clear.
    Mr. Arrington. Okay. So the breakdown's on the IT side. I 
mean, you're being--you're a customer of your CIO and your IT 
operation within the VA. Is that a fair way to describe it?
    Mr. Worley. That's correct.
    Mr. Arrington. Are you happy with the service, are you 
ecstatic, are you average, are you so-so, or are you just 
really fed up and really exasperated and almost depressed that 
you're having to come to this hearing yet again over this 
issue?
    Mr. Worley. Well, as Dr. Lawrence pointed out, we're all 
frustrated that we don't have the solution in place and that we 
have this issue.
    Mr. Arrington. Here's what's frustrating, General, if I 
may. What's frustrating is, we feel powerless up here, because 
we've given you money, we've given you the authority, we have 
asked repeatedly for anything else, if there are barriers that 
we're unaware of to remove. So I can't fire the CI--I don't 
even know who he is. I've never seen him. So, you know, Mark, 
great point, I don't know who he is. I don't think we have one. 
I think you have an acting. I think you've had an acting for a 
while.
    That's also a sort of repeated response, we don't have one, 
this person's been acting, and they've only been in the job--
the continuity of the leadership is a real problem at the VA. I 
think we would all acknowledge that, but we feel powerless to 
do anything. I can't fire anybody. I can ask you who's 
responsible and have they been and should they be.
    The veterans, I think, feel powerless because there's not a 
local VA they can go to if you're not serving them. They can't 
go to the next corner to the VA that provides the same benefit. 
They're trapped. They're trapped in a monopoly in this 
bureaucracy and they can't get out of it.
    And so that's why we're all frustrated, but who is 
ultimately responsible for this dysfunction across the board, 
the legacy, yada yada yada, that we heard? Ultimately, who's 
responsible for that? Is it General Worley, Mr. Under 
Secretary?
    Mr. Lawrence. Look, let me--let me describe accountability. 
As the Under Secretary of benefits, I'm responsible for making 
sure our veterans receive checks under the GI Bill. Mr. Worley 
works with me with that. On the technology, the way the 
structure is set up, we work closely with OI&T. We work 
collaboratively in that sense. Okay? They're responsible for 
the contract with Booz Allen Hamilton. We have to work together 
on this. It's just the way this is set up.
    Mr. Arrington. But somebody's ultimately got to be 
accountable, because if all of y'all are accountable, nobody's 
accountable. I mean, I know that you have to define the need, 
you have to set the expectation, you have to put the user 
requirements and articulate them. I'm assuming that's been 
done. This is an IT issue. And--and again, it is--it feels like 
an exercise in futility. Just about every program and every 
good intention of this Committee where we're trying to solve a 
problem and serve our veterans, and then it's just more IT 
rigmarole and legacy this, that, and the other, and brokenness 
and dysfunction.
    I feel like there's a leadership issue. I feel like there's 
lack of strategic management. I don't think there's a real plan 
for the IT architecture of this agency. I just think it's 
fundamentally broken. Do you agree with that?
    Mr. Lawrence. Let me comment--
    Mr. Arrington. Just a yes or no, do you agree with that 
comment?
    Mr. Lawrence. I don't have context that you have to respond 
to the broad question that you've asked.
    Mr. Arrington. You have better context. You work there. And 
they're not serving you, and you're here before this Committee. 
Do you believe that it's broken fundamentally and 
dysfunctional? Because Booz Allen, I have more confidence in 
his expertise and he says--he uses the word ``legacy.'' That's 
a nice way of saying it's old and it's antiquated and it 
doesn't work well and I'm doing the best I can with this--this 
old, antiquated system, that we've spent hundreds of millions 
of dollars in expecting that you would change it.
    Mr. Lawrence. I would not describe the process we are going 
through, on this project only, where we are--
    Mr. Arrington. Okay. Let me just--Mr.--Mr. Crowe, you've 
seen a lot of organizations, public and private, no doubt. How 
bad, scale of 1 to 10, 10 being the worst, relative to others 
that you've worked with--and I understand you do a lot of 
business, probably billions of dollars with the VA, from what 
I'm told. So I know this is going to be tough to muster the 
courage here to just say it like it is, but you've seen this, 
the boxes and the dysfunction. We just put it on the screen. 
Nobody up here knows what that means except that those boxes 
aren't working together. How bad is it, 1 to 10, relative to 
your other customers?
    Mr. Crowe. It's a good question. I would say that the 
legacy IT systems in the VA are very complex. It's the second 
largest agency in the United States, behind the Department of 
Defense. And not surprisingly, it has a very complex system.
    The other thing I would point out is, many of these 
systems--
    Mr. Arrington. So are you telling me that it's the nature 
of the VA, the complexity of the VA itself is the disaster of 
the legacy systems that you describe, or is it the fact that 
there's not a real IT architecture plan and effective 
implementation of that architecture and plan?
    Mr. Crowe. Well, I can't speak to the entire VA, because 
I'm not familiar with every IT system in the VA.
    Mr. Arrington. But you're familiar with a lot of it, 
because y'all do a lot of work for the VA, correct?
    Mr. Crowe. We do, and--
    Mr. Arrington. My--my colleague told me it was billions of 
dollars.
    Mr. Crowe. Well, it's--
    Mr. Arrington. You think it's over a billion?
    Mr. Crowe. No. I mean, I can get back to you on that, but 
I--
    Mr. Arrington. I was told it was 2 billion, roughly 2 to 3. 
That's a lot of work, man. I hope you know that customer well.
    I've gone over my time, way over my time. I still have 
questions, but I don't even know if we have time. And I want to 
respect everybody's time here, but I still have questions, so 
I'm hoping that one of my colleagues will continue with this.
    Mr. Ranking Member? Five minutes.
    Mr. O'Rourke. Thank you.
    Mr. Arrington. Plus or minus.
    Mr. O'Rourke. Mas o menos.
    Mr. Arrington. Mas o menos.
    Mr. O'Rourke. Mas o menos.
    So just, in my opening comments, I was hoping to have some 
clarity in where we are and how we fix some of the outstanding 
issues. We have 11,000 claims over 30 days. A thousand of those 
are over 60 days.
    General Worley, do we have an estimate for number of claims 
over 90 days?
    As you are finding that, I'm going to just confirm what 
seems to be inferred, which is that this system's not going to 
be ready for the spring semester. You haven't out and out said 
it, but you've said it. If I'm incorrect in stating that, 
correct me.
    General Worley has said: Though the system will not be 
ready, we will be able to avoid delays because we've already 
concluded that the system will not be ready, and we're geared 
up to receive those claims as though the system were not ready. 
So we're not going to have those additional delays.
    My understanding to the question asked by Chairman Roe is 
that we are $4 million in, in additional overtime. To Mr. 
Banks' line of questioning, is that on the contractor if the 
delivery was not received at the deadline agreed to in the 
contract? Is the taxpayer going to eat every additional million 
dollar of overtime or is that something the contractor is going 
to pick up? Who's on the line for this overspending that we're 
seeing right now?
    Mr. Worley. I can address that, Ranking Member O'Rourke.
    Mr. O'Rourke. Quickly if you could, because I have--the 
chair have more questions.
    Mr. Worley. Sure. To put it into context, we do, most of 
the time, voluntary overtime. And my budget for voluntary 
overtime and education is about 6 million a year. We needed 2 
million more to get through August and September to do this 
work. Again, this is mandatory, we're pulling out all the 
stops. In a normal year, we do voluntary overtime for the surge 
periods to maintain our timeliness.
    Mr. O'Rourke. But I would submit if the system were working 
and if it were delivered on time, you would not have had to 
consume that overtime for this project, and it could have been 
applied to something else. There's got to be other need there 
if you have that--that budget line there. So--but I'm going to 
move on to other questions.
    Mr. Under Secretary, when will the system be ready?
    Mr. Lawrence. I don't have a date for you at this point, 
sir. What I tried to explain is we're in the process. It is not 
a dysfunctional process--
    Mr. O'Rourke. That's okay.
    Mr. Lawrence [continued].--it's a process of testing and 
evaluating, and when we've completed that, we'll have a date. 
And we told you we would tell you right away.
    Mr. O'Rourke. What's the total additional cost incurred 
over what was first budgeted for this system, including the 
overtime, the 4 million?
    Mr. Lawrence. I don't know the total--
    Mr. O'Rourke. You should know that, and I'm submitting that 
for the record, and I would love for you to get back to this 
Committee within a week.
    What additional costs do you project taking on in order to 
get this system ready?
    Mr. Lawrence. I'll take that for the record and give you a 
comprehensive answer.
    Mr. O'Rourke. Okay. We'd love to have that within a week.
    General Worley, you mentioned claims being completed on 
time. What does on time mean? Under 30 days?
    Mr. Worley. Our targets for original claims, which is the 
original application, is 28 days.
    Mr. O'Rourke. Twenty-eight, okay.
    Mr. Worley. Historically, we've done much, much better than 
that. And for supplemental claims, 14 days. And historically, 
we've been in the single digits for those with our automation. 
And 92--today, there are 92 claims that are over 90 days.
    Mr. O'Rourke. Over 90 days. Thank you for that.
    When will you resolve those 92 claims, the thousand claims 
over 60 days, and the 10,000 additional claims that are over 30 
days?
    Mr. Worley. We work those every day. The reason they're 
that old primarily is because we're waiting information either 
from the veteran, from the school, or from the Department of 
Defense. We work with the Department of Defense to get us the 
service information. So we work those and work them off every 
day. They'll never get to zero because you're always going to 
have development going on for those claims.
    Mr. O'Rourke. Are you saying that from your side of the 
problem, you all have done as much as you can, and you're 
awaiting responses back from the veterans or the educational 
institution or some other third party?
    Mr. Worley. In those cases, yes, but we don't just sit 
around and wait. We--we, you know, re-ask the questions, and we 
have systems to communicate with the DoD and others to try to 
get the answers that we need so we can process the claims.
    Mr. O'Rourke. Okay. And then do you need--this is something 
the Chairman of the Subcommittee was asking, and Mr. Takano 
asked as well. Do you need any additional authorization or 
appropriation? Is there anything from our end that you need?
    Mr. Worley. At this time, and I share the frustration of 
the Committee, there's--we appreciate all the support of the 
Committee. This isn't a funding issue. This isn't a people 
issue, per se, although we have hired additional people to work 
this. This is an issue of getting through the complexity of the 
software.
    Mr. O'Rourke. Something that just came in that I would 
bring to your attention if you didn't already know about it. 
Columbia University is limiting student veterans' ability to 
register for classes for the spring if they have outstanding 
balances, the result of delayed GI Bill payments. I haven't 
checked the veracity of this. I just would bring it to your 
attention. We--as this hearing has progressed, folks have been 
getting in touch with us on social media saying that this is 
the case.
    I guess those are my outstanding questions, Mr. Chairman, 
and some of them we're waiting on the Under Secretary to get 
back to us on. I've asked that they be received within a week. 
These should be things that we know, how much we've spent over 
the projected amount, and we should have a good estimate of 
what we're going to spend going forward, or we're in greater 
trouble than I thought.
    Thank you.
    Mr. Arrington. I couldn't agree more. Thank you for the 
line of questioning.
    And now I recognize Mr. Banks for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Mr. Crowe, is it true that since August, when this system 
was supposed to go live, that you've received an additional 80 
user cases from the VA, which are the requirements that the 
software needs to perform? And if so, how have these 
requirements impacted the timely delivery of the modifications 
to LTS?
    Mr. Crowe. Sure. As Dr. Lawrence said earlier, there was a 
pause taken in August to take a look at the functionality and 
if every user case was accommodating all the many different 
variations that you can have through Colmery, and that resulted 
in 83 additional user cases. From a time to implementation, we 
do a release code--we can turn one around overnight. So we went 
from, you know, working with the VA, we would turn these around 
fairly quickly. And we went from release code--I think it was 
18 in August--in July. We're at release code 29 right now. So 
it's 11 different release codes.
    We use agile development, and we just kind of--on an 
iterative basis, keep working. And then as user acceptance 
testing goes, we have people over the shoulder, and if there's 
something that comes up, there is a defect or any kind of 
issue, we are doing real-time patches. And like I say, we 
delivered release candidate 27 on November 7th. It's been in 
testing, and there's been no issues that I'm aware of, but we 
continue to--
    Mr. Banks. All right. Let me--let me cut through all that. 
So 83 since August?
    Mr. Crowe. That was the result of the pause, and it was 
because there was many--
    Mr. Banks. But you said 27 before that.
    Mr. Crowe. Yeah, we received--we worked on 11 of them that 
came in, in the January through April timeframe. There was an 
additional 16 that we continued to work on, that were in draft 
format, and we finalized the 27th one on July--I want to say 
July 20th, or something like that, or July 12th. I think it was 
July 12th we received--and then we turned that around very 
quickly, and we were able to get a release candidate into the 
VA's hands by the 27th.
    Mr. Banks. Okay. Thank you.
    Mr. James, the contract is to deliver software, but 
strictly speaking, it buys scrum teams, which are teams of 
software developers to do software development sprints. You 
have been adding scrum teams throughout the year. How many 
scrum teams and software development sprints are you up to now?
    Mr. James. Congressman, I don't have the exact number. So 
let me take that for the record. I think it was--we started 
with two, we added two, I think we added two more, but, you 
know, I need to get the exact number for you.
    Mr. Banks. So you can't tell us how many scrum teams?
    Mr. James. Not off the top of my head, how many scrum teams 
are in action today, no.
    Mr. Banks. Or how many people at all would be necessary to 
get this done?
    Mr. James. The development teams that are working in 
Charleston, that's what we're referring to with the scrum 
teams, that's the actions and the software folks there in the 
Booz Allen Hamilton facility.
    And, of course, what happens after that is that as software 
is built, then it has to get tested. There are--so, in terms of 
the scrum teams, as Rich Crowe just mentioned, they are able to 
turn around the software in response to users testing and bugs 
and user scenarios and so forth. But that's just step one. Now 
you have to go test that software. It happens in different 
processes and different locations with the engagement of the 
users.
    So the fact is that our testing tail end of this process 
can't keep up with the development processes, the scrum teams, 
as you mentioned. That's part of the technical debt that we're 
dealing with, is that we have old testing systems and old 
testing processes that are catching the software code that is 
being developed by Booz Allen Hamilton.
    Mr. Banks. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. Banks.
    I now recognize Mr. Takano for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Lawrence, just to be clear, VBA has stated that it will 
not recoup money from anyone who was overpaid by VA related to 
Sections 107 and 501, and--instead of writing it off as an 
administrative error. Can you please confirm this?
    Mr. Lawrence. There was--the ``instead'' in the sentence. 
That we're not going to claw back money under the circumstances 
Mr. Worley described, right?
    Mr. Takano. Yes.
    Mr. Lawrence. There's no instead. It will be an 
administrative error.
    Mr. Takano. It will be an administrative error. So I just 
want to make sure that folks who are watching this hearing 
understand and that the media reports it correctly, that any--
no claw back of overpayments related to Sections 107 and 501?
    Mr. Lawrence. Absolutely. Let me state it clearly. If you 
have been overpaid, after we do the reconciliation, we will not 
come for that money.
    Mr. Takano. All right. Thank you.
    General Worley, you say this is not an IT--it is not a 
money problem, not a people problem. What is the problem? 
Because I just--
    Mr. Worley. The problem has been--
    Mr. Takano. What was missing up until--are you confident? 
You say you have everything, just for the record? VA has 
everything it needs?
    Mr. Worley. I think the problem has been articulated, as 
our IT colleagues have articulated, the difficulty of--of what 
we're trying to take on here. So I think throwing more money or 
more people at it, I'd defer to IT if they need more people. 
But from my perspective, it's a matter of continuing to do the 
testing and continuing to ring out the software so that we can 
get it right and pay our veterans correctly.
    Mr. Takano. Okay.
    Dr. Lawrence, your ability to actually get a timeline, to 
get a sense of when this is going to--everything's going to be 
worked out, meaning, who are you relying on, the project 
managers, to be able to tell you this?
    Mr. Lawrence. Right, there's a project management team. I 
work closely with the folks here to figure out where are we, so 
we know with certainty when we give you a date, we understand 
what that certainty is. So, again, it's the process we've been 
trying to describe: test, figure out what the problems are, 
root cause analysis, analyze the problems, figure out the user 
cases and come back with the solutions. And when that's done, 
we'll know the date.
    Mr. Takano. They're accountable to you or are they 
accountable to ultimately the head of IT, whoever is the top IT 
person at the VA?
    Mr. Lawrence. It's a little bit of both. Booz works for IT, 
IT works with me, the IT folks are solid line to the head of 
IT, dotted line to me.
    Mr. Takano. Dotted line to you. Okay.
    And, again, I just want to state for the record that the 
IT--head of IT, even though we have an acting, blah, blah, 
blah, you know, unconfirmed, and that's Mr. Sandoval--and I 
just want to state again, he's not here, and I think that's a 
glaring, glaring omission, in terms of us doing oversight, on 
our part--a major person who is accountable for the IT, has 
responsibility for IT, he's not here. The solid line goes to 
him. The dotted line goes to you. But the guy for whom the 
solid line goes to, Mr. Sandoval, he's not here. And that's a 
fact.
    Mr. Lawrence. Noted, thank you.
    Mr. Takano. Thank you.
    I think, Mr. Chairman, we need to--we need to talk to that 
guy. And it seems to me that the President and the Secretary, 
they need to make these appointments. They need to fill these 
vacancies. This is--this is a management vacancy, a critical 
management vacancy at the confirmed Senate level. We have 
45,000 vacancies at the VA, 40,000 of them in the Veterans 
Health Administration. But this is--this is a problem.
    I want to associate myself with the Chairman's remarks 
about a continuity problem, a lack of continuity in the very 
top level. There's been four secretaries since I've been here 
in 6 years, four secretaries of this department. And now this 
critical IT position, which requires a tremendous amount of 
technical expertise, competence. I think what's missing is a 
competent person who can be held accountable for what has 
happened. I don't even know if anyone at this table can really 
explain what could have been done differently, because that 
person's not here.
    So I would submit, Mr. Chairman, we need to hold another 
hearing with Mr. Sandoval and ask him to show up. So my time is 
up. I--I--
    Mr. Arrington. Well, I appreciate your remarks and your 
line of questioning, and I agree with you, Mr. Takano. Thank 
you.
    Mr. Chairman, I recognize you for 5 minutes.
    Mr. Roe. Thank you. I think that person's nomination is 
sitting over in the Senate now. I think just for clarification, 
hasn't been--I think they're queued up in a long line.
    The question that I'd like answered--questions I'd like 
answered is, how much money so far, to date, have we spent on 
an IT system that doesn't work, number one--or isn't working? 
We don't know it doesn't; it just hasn't been implemented yet. 
Number two, how much overtime have we spent, the taxpayers' 
dollars, because this IT system didn't come in on time? And 
lastly, how much have we paid in overpayments to people that 
we're not going to claw back? And I think that's--I will--think 
that's the right thing to do, I think you're doing absolutely 
the right thing there. It would be very difficult to do.
    One of the concerns I have with IT is I remember sitting 
here--I'm the only one at the dais that was here at the time 
when the Secretary of Defense and the Secretary of the VA, 
Secretary Shinseki, sat right there, and spent a billion 
dollars trying to make the Alta Vista systems talk to each 
other, and that's why we're doing Cerner now.
    So that is my--one of my frustrations, that we've spent a 
billion dollars. I have no idea where it went. And I don't want 
to see that happen again at the end of the day, that we've 
spent, I don't know how much money. I'm going to stop in a 
second and let you try to answer those questions. We're going 
to be here a month or 6 months from now and find out that we've 
spent millions of dollars, and we don't have a deliverable. 
Because I've seen that happen here. So I'll stop on those three 
questions.
    Does anybody have an answer for those? And we're spending--
the number I have is $380,000 a week in overtime.
    Mr. Lawrence. So the first two questions require us--and 
we'll take for the record--a comprehensive answer so that we're 
complete and not omitting anything.
    Mr. Roe. Do we have any idea, Dr. Lawrence, how much we've 
spent up until now? I mean, it's got to be some checks that 
have gone out. I mean, I know Booz Allen is not doing this 
because they like us.
    Mr. Lawrence. Right. So--so if you don't--if you don't hold 
me to this, I can answer two questions for you, which will be 
part of the answer we will give, which is a question of how 
much have we spent on Booz, how much have we spent on overtime. 
Those two are a subset, not the complete answer to your first 
two questions.
    And the third one, we'll give you an estimate. Because as 
Mr. Worley points out, we actually will not know until we run 
the software who's been overpaid. We can give you an estimate 
on that one. So let's start with that.
    You can talk about how much.
    Mr. James. Yes, Chairman, so far, we've paid to Booz for 
the Colmery Act, parts of the contract, $1.2 million. That does 
not include the software that Mr. Crowe was talking about that 
has not been, you know, invoiced yet. So 1.2 million today, to 
date.
    Mr. Roe. Okay. So it's not a--it's not a money issue. The 
funds are there to do what you need to do?
    Mr. James. Correct.
    Mr. Roe. Okay. I appreciate that, and I appreciate your 
candor in that.
    And just for the record, and maybe you want to answer this 
or not, but our Committee was asked not--we were asked not to 
send a team to Muskogee. And the report I got back from 
Muskogee was, those folks are working hard. And they were very, 
very--I mean, I got a glowing report. So the people who were 
there are trying to make this system work, and I can't imagine 
the frustration they must have when the system crashes over and 
over and they got to start all over again and go--I mean, I 
know I am when I'm doing this and something, I want to throw it 
as far as I can. I can't imagine what they're going through out 
there.
    And have you all made a visit out there to talk to these 
three areas? Has someone made a trip out there and shared what 
you're trying to do to help make their jobs a little easier?
    Mr. Lawrence. Yes, sir. So we made a visit the next week 
after your team went out there. We regularly talk to them. 
Don't forget, the regional office director reports to a 
district director, who reports to the office of field 
operation. They hold regular communications around these 
issues. Okay? I was the one who suggested your team not go, 
because, again, the time your team spent with our people was 
time they were not processing claims. So--
    Mr. Roe. Well, I'm going to interrupt you right there. And 
I will say this, as the Chairman of this Committee, I would not 
have learned anything sitting in that office right back there. 
I had to get out and travel all over this country and go 
firsthand to people and see what they're doing, putting my 
eyeballs on the problem.
    Mr. Lawrence. I didn't--
    Mr. Roe. And I don't know, again, why you would have asked 
us not to go. We're trying to help make this better, not worse, 
and we can't do it unless we have accurate information.
    Mr. Lawrence. I didn't say not go. I said not go during our 
peak processing week when those people should have been 
processing claims. The five from your team and the two from the 
local Senator were there for a day and a half. It took 15 of 
our members to--15 of our team to provide information and do 
things with them. It was invaluable what they learned, no 
doubt. I didn't say don't go. I wish you would have waited a 
couple weeks so those people could have processed claims.
    That being said, the things you learned were valuable, and 
I want to be transparent of what my perspective was. I'm happy 
you went; your team was glowing at the--our team was glowing--
    Mr. Roe. I thought the peak was back in August, not almost 
in November.
    Mr. Lawrence. The peak was in September and October, and 
that's what you were seeing being worked on.
    Mr. Roe. What was the date of that that we went out there? 
Twenty-fourth of October, that was 2 weeks ago.
    Mr. Lawrence. That was at the end of the peak, that's 
right. We were processing 12,000 claims a day. Those 15 people, 
that's a nontrivial part of our workforce, sir. So, again, what 
I was doing was articulating a veteran's perspective--
    Mr. Roe. How many do you have totally in your workforce?
    Mr. Lawrence. Twenty-four thousand. Education workforce is 
about--
    Mr. Roe. We took 15, and that was enough to paralyze the 
whole operation?
    Mr. Lawrence. I didn't say ``paralyze,'' sir. It had 
consequences. There are opportunity costs. You're always 
welcome. Every Member of this Committee and all their staff is 
welcome to come to all our facilities at any time they want.
    Mr. Roe. Okay. I yield back.
    Mr. Arrington. Thank you, Mr. Chairman. Appreciate your 
engagement and being here with us today at this hearing.
    Now I want to recognize Mr. Correa again for another 5 
minutes.
    Mr. Correa. Thank you, Mr. Chairman. I'll try to be brief.
    Follow-up question on the time that it takes to process 
claims. How long does it take to process a hardship claim? You 
said 28 days, General Worley, for the regular claim?
    Mr. Worley. No, sir. Those are--those are our targets. As I 
mentioned, historically, we do it much faster than that. The 28 
days is for an original application--
    Mr. Correa. Okay.
    Mr. Worley [continued].--because it takes longer because 
we're verifying service information and those types of things. 
But once an individual is in school and the school sends in 
that certification, in 40 to 50 percent of those cases they go 
through our automation untouched by human hands, and the checks 
go out within a matter of a handful of days.
    So a hardship case, though, to get to your question, as 
we've solicited and gotten names from this staff and from VSOs 
and others, we have a hardship queue, which is a protocol that 
we've had in place for a long, long time--it wasn't just 
instituted for this--where they get put into a hardship queue, 
and those hardship queues are cleared out virtually every day. 
So within 3 to 5 days or so after that claim is processed, the 
individual has money in the bank.
    Mr. Correa. Thank you.
    Follow-up question, which is, I want to be part of the 
solution. There's a lot of challenges here. This is a work in 
progress, so to speak. Can I work with your office so I can get 
the information out to my veterans? California's home to the 
largest number of veterans in the country, and my area in 
Orange County, we have plenty of young veterans coming back 
from servicing our country. I'd like to work with you to get 
the message out, your 1-800 number, whatever it is we need to 
do, to make sure veterans are connected immediately to a 
solution should they find a problem.
    So later on offline we'll talk about how to get the message 
out through my office to our veterans.
    Mr. Lawrence. Yes, absolutely.
    Mr. Correa. Thank you very much.
    Mr. Chairman, I yield.
    Mr. Arrington. Thank you, Mr. Correa.
    If you guys would indulge me with one question, just a 
follow-up question, maybe one and a half, but it will be real 
quick.
    Mr. James, you're with the IT outfit, and, Mr. Galvin, I 
think you're with the IT outfit. Have y'all been to Muskogee--
Muskogee? I'm from Texas.
    Mr. Galvin. Yes, sir. Yes, we have. We accompanied Dr. 
Lawrence.
    Mr. Arrington. Okay, okay.
    And, Dr. Lawrence, let's conclude with this, and I want the 
folks who are watching and listening, and I want my colleagues 
to be clear about your answer to this. Do you have a sense of 
confidence that you are getting your arms around this and that 
this issue will be resolved? We won't yet put a time on it, but 
do you have confidence that this issue will be resolved in the 
near term?
    Mr. Lawrence. Yes, absolutely.
    Mr. Arrington. And you have high confidence it will be?
    Mr. Lawrence. Yes.
    Mr. Arrington. Okay. If you have the information, and I'm 
not trying to trap you or trick you, but if you have enough 
information that you have a high confidence it will be solved, 
then you ought to have enough information to give us a 
timeframe. You should.
    Listen, it'd be one thing if you were just, we're still 
digging into it, we don't know what we've got, you know, we're 
not sure yet, we're still--listen, if you're confident, that 
confident, I believe you owe this Committee and the veterans 
who we all serve a timeframe.
    And so I'm going to ask that you submit that for the 
record, like we're going to need the responses to questions 
that were asked today, and we will follow up with it. But I 
think everybody up here feels like, if you all feel like you're 
getting your arms around it, you feel like it's going to be 
resolved in the near term, you ought to be able to give us a 
timeframe. So we're going to expect that, and you can go back 
and talk to the Secretary and the CIO acting and come up with a 
timeframe so that we can continue to hold you accountable. 
Because that's our job. Can't really hold you accountable if 
you don't have that date.
    If you will also indulge me in just saying a few kind 
things about my colleague from Texas. This is, I think, our 
last hearing, right? I think it's going to be our last hearing 
for this Congress, and I didn't have any prepared remarks, but 
I've got to say, one of the joys of my service, Mr. Chairman--
and thank you for the opportunity to serve as Chairman over 
this Committee. I sure hope we've pushed hard, fought hard, 
worked well with all to try to make a difference for our 
veterans in our country. I could not have done this without 
Beto O'Rourke.
    [Applause.]
    Mr. Arrington. So, yeah, please.
    One of the most gratifying experiences of serving in 
Congress has been serving on this Committee and this 
Subcommittee and working with Beto, and it's because we are 
red, white, and blue in here. And it's so refreshing. And we do 
battle. And we have wildly different views, I'm certain, on 
many issues, but you wouldn't know it the way he treats me, and 
I hope the way I treat him. And we need a whole lot more of 
that in this place.
    But you really set the tone, because I'm just a freshman, 
and you--you were such a great support and you have helped me 
lead in a way that we were all effective and productive for our 
main customer, the veteran.
    So there's not enough words to say thank you appropriately. 
But as a fellow Texan, I think you get the drift, right?
    Mr. O'Rourke. I do. Thank you.
    Mr. Arrington. Well, God bless you and your family, and 
thank you for your service to this country, Beto.
    And with that, I ask unanimous consent that all Members 
have 5 legislative days to revise and extend their remarks and 
include extraneous material. Without objection, so ordered.

    [Whereupon, at 5:53 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Dr. Paul R. Lawrence
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke, and 
other Members of the Subcommittee. I am pleased to be here with you 
today to discuss the implementation of the Harry W. Colmery Veterans 
Educational Assistance Act of 2017 (Colmery Act) or, as it is more 
commonly referred to, the Forever GI Bill, and the processing delays 
being experienced by some students in receiving their monthly housing 
allowance (MHA) and tuition and fees payments for the fall term. 
Accompanying me today are Robert M. Worley II, Director of Education 
Service, Veterans Benefits Administration (VBA); Bill James, Deputy 
Assistant Secretary for Development and Operations (DevOps), Office of 
Information and Technology (OIT); and Jack Galvin, Associate Deputy 
Assistant Secretary for Information Technology Operations and Services 
(ITOPS), OIT.

IT Requirements for Implementation

    As you are aware, many GI Bill students have encountered 
unacceptable delays in receiving their GI Bill benefits. On behalf of 
Secretary Wilkie and every member of the VA team, we understand the 
impact, and we are working diligently to minimize these delays 
affecting GI Bill students.
    To date, VA has not been able to deploy an information technology 
(IT) solution to support the most critical and impactful Colmery Act 
provisions, Sections 107 and 501. These sections affect nearly all 
Post-9/11 GI Bill students because they change the way VA pays monthly 
housing stipends by aligning payments with the location where students 
physically attend most of their classes and removing the reduction 
exemption on GI Bill stipends.
    In the legislative hearing before the House Committee on Veterans' 
Affairs on July 17, 2017, VA raised concerns that implementing the bill 
would be challenging because of the required changes to IT systems to 
support many of the provisions. Soon after the bill's enactment on 
August 16, 2017, VA's internal analysis found that 22 of the 34 
sections needed IT solutions at an estimate of $70 million. OIT funding 
priorities for FY 2018 were already firmly established prior to the 
legislation being passed at the end of FY 2017. VBA Education Systems 
had not been updated/modernized in over seven years. Without IT 
changes, VA would need almost 1,000 new full-time equivalent employees 
to administer the law's changes, over 800 solely for Sections 107 and 
501.
    As VA testified at the hearing with this Committee on December 12, 
2017, OIT, in consideration of this analysis, committed to providing a 
solution to Sections 107 and 501. To implement Colmery Act provisions, 
OIT partially redirected an already awarded contract whose focus was to 
decommission an over 50-year-old legacy system (i.e. Benefits Delivery 
Networks (BDN)) that makes all Chapter 33 payments. To this effort, 
VA's overall plan was to work the implementation of Colmery Act 
provisions and the decommissioning of BDN in parallel. The task order 
applied to this modified contract contained a six-month requirements 
development period of performance followed by a six-month development 
and delivery of functionality in incremental releases (called sprints). 
At the start of Fiscal Year 2018, Education Service staff began 
offering demonstrations and gathering requirements with our Booz Allen 
Hamilton (BAH) contractors. These sessions would support the BAH 
development team that was onboarding through March 2018. In addition to 
the work associated with these two sections, VA also leveraged this 
contract vehicle to make IT system changes and modify automated letters 
to accurately reflect the removal of the 15-year time limitation to use 
the Post-9/11 GI Bill benefit.
    In anticipation of a July 2018 release of an IT solution, VA 
notified schools in early April to suspend submitting claims where the 
potential existed that a student was attending classes in multiple 
locations. This direction was intended to prevent schools from having 
to re-submit enrollment certifications for impacted students after the 
IT deployment. VA communicated that it would continue to accept claims 
when a student was attending all classes at the school's main campus.
    In early June 2018, VA began User Acceptance Testing on the initial 
software builds to meet a July 16, 2018, deployment date. The results 
of this testing found enough defects and problematic payment scenarios 
to warrant delaying the release to the end of July. While BAH 
developers regularly delivered new builds, critical defects and 
significant issues with payment integrity continued to be found, and on 
July 17, 2018, VA again pushed the targeted go-live date to the middle 
of August.
    During the July 18, 2018, oversight hearing with this Committee, VA 
testified to the complexities presented by the needed modifications and 
the challenges OIT and BAH experienced to deliver an acceptable 
solution to Education Service. On August 9, 2018, VA determined that 
the August 13, 2018, scheduled deployment of the solution was no longer 
feasible due to outstanding fixes required to ensure a stable and 
optimized solution for end users and School Certifying Officials (SCO) 
and to ensure a high level of integrity in payments to GI Bill 
students. Splitting the sections into phases was also not feasible 
given that Section 107 and 501 affect the way VA calculates the MHA. 
Both are required in the updated IT system to ensure proper processing.
    In evaluating the progress towards a deployable solution, OIT 
requested a development freeze to review the initial requirements 
finalized in May 2018 to implement Sections 501 and 107. OIT and VBA 
engaged in dialogue around clarifications on the submitted 
requirements, thereby identifying a need for elaboration in business 
policy, business requirements, and IT understanding.
    As these circumstances unfolded, VA notified over 300,000 students 
and over 35,000 SCOs that the IT solution was not ready and advised 
schools to submit all claims for processing. VA then experienced a 
large increase in claims that would have normally been received and 
processed over a 6-month period. This greatly compressed the timeframe 
VA processors had to meet the demand of the peak fall season.
    In making this determination to accept all claims, VA understood 
that MHA payments would be paid at the 2017 rates, and some students 
would be paid incorrectly because of the changes in Section 107. These 
risks were outweighed by the need to pay students timely to ensure some 
measure of financial security. VA would like to emphasize that upon 
implementing the IT solution for these sections, students affected by 
underpayments will be fully compensated, and VA will not establish a 
debt against students who were overpaid.

Payment Delays

    Education claims processing times vary throughout the year due to a 
number of factors including fall and spring peak enrollment periods and 
IT issues that may affect production. For the fall 2018 term, VA 
experienced a higher than usual pending inventory count, which resulted 
in increased processing times. This is caused by the delayed 
implementation of the IT solution for section 107 and 501, the fall 
peak enrollment period, and IT system issues. As a result, Education 
Service reached its highest pending inventory since 2012. On September 
14, 2018, Education Service had 206,931 claims pending, which was 46.2-
percent higher than last year's fall peak pending inventory.
    OIT identified three incidents since August 2018 where our 
processing systems experienced issues interfacing with each other when 
attempting to share claims data. The first discovery of this issue 
prevented the automated processing of claims, and led to an increase in 
the number of claims requiring manual processing. Subsequent incidents 
discovered by OIT were addressed and remediated for automated process 
handling. An interim solution has been implemented for monitoring key 
integration points required for automating claims. OIT will implement 
an improved version of this functionality in the future.
    In addition, Regional Processing Offices (RPO) have experienced 
other IT issues, to include significant latency problems that affected 
operations for weeks, system outages, connectivity failure reducing the 
number of automated claims, and system issues with the legacy Benefits 
Delivery Network. The Muskogee and St. Louis RPOs required additional 
bandwidth, which was deployed to both sites. Also, fully automated 
claims were down for the month of August and September. Claims were 
fully automated at 37.8 percent and 37.3 percent respectively, which is 
five percentage points below the seasonal normal (based on a comparison 
against August 2017 of 41.8 percent and September 2017 of 42.8 
percent).

Mitigation Strategy

    The longer than normal processing times will likely persist through 
the end of the year. While still significantly higher than last year, 
the pending inventory has been steadily decreasing in recent weeks. VA 
is taking several measures to ensure this occurs, including hiring an 
additional 202 term employees to manage the uptick of claims received 
as a result of Colmery Act implementation. Education benefit claims 
processing employees at RPOs have been on mandatory overtime since 
August 1, 2018. Overtime has been made available to former claims 
processors to assist with the pending workload. VA also leveraged other 
field staff to process claims. Additionally, VA is taking steps to 
ensure the oldest pending claims are worked first to further limit any 
impact to students. These include direct outreach to students when 
their claim is processed and escalating service verification issues to 
the Department of Defense. VA is expediting claims of GI Bill students 
experiencing financial hardships caused by payment delays. These claims 
are processed immediately.
    VA notified SCOs and students of the delays associated with 
implementing the IT solution for sections 107 and 501 of the Colmery 
Act. On September 7, 2018, VA sent an email notification to SCOs with 
an update on changes to the MHA due to the Colmery Act. VA also sent 
this message to students and updated SCOs on September 17, 2018, that 
the 2018 tuition and fees cap was effective. On October 9, 2018, VA 
sent an email notification to these populations regarding payment 
timeliness and delays and how to get immediate help. On October 15, 
2018, VA sent an email notification to SCOs explaining that delays are 
also impacting VA's tuition and fee payments and to not penalize GI 
Bill students for these delays. On October 24, 2018, VA sent emails to 
students and SCOs again informing them of the status of our processing 
and providing avenues for addressing hardship situations quickly.
    These messages have been published on the Education Service Web 
site and Facebook page. VA's social media is actively monitored by 
staff to assist individuals who may require additional support. VA is 
also providing daily briefings on pending workload and timeliness to 
Veterans Service Organizations and will continue to use all available 
channels to provide updates and guidance as needed to schools, 
students, and stakeholders.
    In addition, VA has taken several measures to mitigate the 
previously mentioned system issues at the RPOs. To address latency 
issues, VA increased bandwidth capacity nearly 50 percent at the 
Muskogee Regional Office (RO) by upgrading a circuit. The St. Louis RO 
upgraded circuit was recently completed. The Buffalo RO is scheduled to 
be completed by November, but we have asked AT&T to expedite.
    Furthermore, the Education Call Center experienced significantly 
higher than normal call volume which created long wait times for 
callers. As of October 25, 2018, the call volume has subsided with wait 
times being as low as 37 seconds for callers.

Next Steps

    While VA expects the pending inventory to remain at an elevated 
level through this year, the implementation of the IT solutions for 
Sections 107 and 501 and incoming enrollments for the spring term will 
again create some processing challenges. With this in mind, VA has 
begun to develop a strategy and plan for schools to submit both a 
corrected fall enrollment in those circumstances requiring it, because 
a student is attending classes at multiple sites, and concurrently 
submit the student's spring enrollment. This allows VA to process both 
simultaneously, which will assist with timeliness.
    Based on VBA prioritization of IT efforts, the modifications needed 
on the legacy system, VA Once, will be made and tested against the 
changes made to LTS. After changes are applied, there will be a full 
testing cycle, followed by a go/no go decision to deploy to production.
    Mr. Chairman, VA understands that these payment delays have 
negatively affected the GI Bill students we diligently strive to serve 
every day. While we pursue the needed IT solutions, we will continue 
our ``all hands-on deck'' initiative to eliminate payment delays and 
provide the best customer service we possibly can.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to testify before the Committee today. We look forward to 
responding to any questions from you and Members of the Committee.

                                 <F-dash>
                  Prepared Statement of Richard Crowe
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke, and 
Members of the Subcommittee. I am Richard Crowe, a Senior Vice 
President at Booz Allen Hamilton and the Client Service Officer for 
Booz Allen's Health Account. In that role, I lead a diverse portfolio 
of health services, including numerous IT and health care operations 
service contracts. I am pleased to be here with you today to discuss 
the continued implementation of the Harry W. Colmery Veterans 
Educational Assistance Act of 2017 (Colmery Act) or, as it's more 
commonly referred to, the Forever GI Bill.
    Booz Allen has a strong, demonstrated commitment to serving our 
Nation's veteran population.
    Booz Allen was founded by a veteran, and the company has supported 
the Department of Veterans Affairs continuously since 1952. Booz Allen 
takes great pride in our 65-year history of supporting veterans, which 
we do in multiple ways. Approximately one-third of our over 24,000 
employees are military-connected - meaning they are a veteran, in the 
National Guard, or a military spouse - and Booz Allen invests in 
helping our military connected employees thrive through career 
building, comprehensive benefits, formal programs for military spouse 
support, and support to the military and veteran communities through 
innovative and impactful nonprofit partnerships. We have a broad 
portfolio of work at the Department of Veterans Affairs (VA) and are 
committed to its mission to serve veterans.
    Over the past six years, we have been increasingly involved in 
supporting the IT mission at the VA and in helping the VA with its 
broader IT modernization goals. We have successfully completed more 
than 100 IT related projects at the VA, and we have been helping the VA 
implement more modern technologies to improve the veteran's experience.
    Booz Allen currently supports implementation of Sections 107 and 
501 of the Colmery Act as part of its contract with the VA for the 
Benefits Integration Platform (BIP). The BIP task order was 
competitively awarded by the VA's Technology Acquisition Center in 
September 2017 and the VA issued a modification covering the Colmery 
related software development in January 2018. We support and facilitate 
the improvements that are the subject of today's discussion in 
cooperation with the VA offices represented here today.
    In our role as the software developer supporting BIP, Booz Allen 
translates each of the VA's identified user cases into a technical 
solution. The VA leads the requirements development process, which 
includes a requirements elaboration process in which Booz Allen 
participates. The output of the requirements elaboration process is a 
list of user cases for software development and the criteria for user 
acceptance testing. The VA maps and determines the benefits outcome for 
each user case based upon the VA's interpretation of the statutes, 
regulations, policy, and business rules associated with the relevant 
benefits program. Our job as software developers is to ensure that the 
developed code produces the desired end results. The user cases 
developed in the requirements elaboration process serve as the 
contractually agreed-upon acceptance criteria for each new software 
release.
    Booz Allen appreciates this opportunity to reflect upon the 
challenges that led to the VA's decision to postpone deployment of the 
new software into production beyond last August 1. As I shall describe 
below, the unfortunate delay has been caused by the confluence of 
outdated systems being asked to perform ever complex tasks.
    The Colmery Act required numerous changes to the Department's 
underlying regulations, policies, and business rules. Stated simply, 
the volume of changes to the business rules, which shifted the way in 
which housing allowances are paid, made it difficult to capture the 
full scope of potential user cases as part of the requirements 
development process. The Colmery Act revisions required not only new 
business rules, but also a greater number of determinations regarding 
the interactions of those revised rules that caused the volume of user 
cases to expand in scope as development progressed.
    During testing performed in June and August 2018, the VA identified 
user scenarios that required further revision, as well as additional 
user scenarios that were absent from the initial release. Booz Allen 
worked tirelessly to incorporate these additional user scenarios into 
the software release candidates delivered this Fall.
    From a technical perspective, two of the primary factors driving 
the length of time necessary to implement these changes were the high 
number of system dependencies and the age of the underlying systems. 
From a numbers perspective, the updated release required under the 
Colmery Act draws on data elements housed in four other distinct 
underlying, legacy VA systems. Because no single database contains all 
the information necessary to assess benefits eligibility, we must draw 
data from these systems to obtain the required information to make 
decisions. The VA is the master systems integrator for all of these 
systems. Booz Allen has responsibility under BIP for only one of these 
systems: the Long Term Solution (LTS) system we are charged with 
modernizing. The rest of these systems are maintained by the VA or 
other contractors. As such, developing a solution that pulls data from 
these systems requires patches, updates, and other coordinated efforts 
to ensure successful synching of data.
    At the same time, many of the underlying IT systems required to 
implement the changes were past, at, or very near their intended dates 
for retirement. Indeed, at the time it competed the BIP contract, the 
VA had envisioned retiring many of these legacy systems. The Colmery 
Act reprioritized that timeline. As a result, we have had to program an 
elaborate set of interfaces to draw from these different systems. These 
essential efforts have required further system design, coordinated 
testing, and requirements validation.
    In summary, from Booz Allen's vantage point, the events that bring 
our panel before this Subcommittee today stem from the challenges posed 
by endeavoring to build new software - to address more rules and 
additional variables - on something very old. The obstacles encountered 
have not been failures of the new software, but rather, the result of 
performing the work on a fragile infrastructure that was not originally 
designed to perform the task requested, and calling upon these 
multiple, interrelated IT systems. These are the key challenges driving 
the duration of the development process.
    Although there have been challenges, there have been notable 
successes in the first year of the BIP program. Booz Allen has 
successfully updated approximately sixty percent of the legacy LTS 
code. We have helped the VA achieve greater efficiencies and implement 
best practices during this release process that will improve the 
overall efficiency of this IT system moving forward. Further, in 
parallel to this effort, we have been working with the VA to implement 
the modernization plans in other areas that continue to drive toward 
the VA's goal of a modern, micro-services-based technology stack. In 
short, we have already enabled the lessons learned from this process to 
help the VA minimize the obstacles encountered for the benefit of all 
future IT modernization efforts.
    We look forward to discussing these successes, as well as 
challenges, in greater detail with the Subcommittee and, more 
importantly, we look forward to continuing to provide support to the 
Veterans Administration as they enhance education benefits for 
veterans, service members, families and survivors through the 
implementation of the Colmery Act.
    Thank you for the opportunity to testify before the Subcommittee 
today. I look forward to your questions.

                                 <F-dash>
                       Statements For The Record

            Iraq and Afghanistan Veterans of America (IAVA)
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee:

    On behalf of Iraq and Afghanistan Veterans of America (IAVA) and 
our more than 425,000 members worldwide, thank you for the opportunity 
to share our views, data, and experiences on the important matter of GI 
Bill payment delays.
    Defending the GI Bill is an extremely important part of our work 
and is highlighted in our Big Six priorities for 2018, along with our 
Campaign to Combat Suicide, Support and Recognition for Women Veterans, 
Reforming the VA for Today's Veterans, Support for Injuries from Burn 
Pits and Toxic Exposures, and Support for Veteran Cannabis Utilization.
    According to our most recent member survey, the Post-9/11 GI Bill 
is an extremely popular program; 90% of our members have used, plan to 
use, or have transferred the benefit to a qualifying dependent. Out of 
the vast amount of our membership that have used the Post-9/11 GI Bill, 
74% said that they had `Good' or `Excellent' experiences. \1\
---------------------------------------------------------------------------
    \1\ iava.org/survey
---------------------------------------------------------------------------
    I am proud to say that I am one of those members. I transitioned 
out of the military in August 2011 and enrolled in classes at a local 
community college the following week. I went on to be the first member 
of my immediate family to earn a bachelor's degree. The Monthly Housing 
Allowance (MHA) allowed me to focus on my studies and not have to worry 
about the additional stress of how I would pay for rent, utilities, or 
food. The importance of the Post-9/11 GI Bill in my life and the lives 
of over 1.5 million veterans who have used it cannot be understated. 
\2\ It has set me up for a lifetime of success and opened up doors that 
I would have never been able to achieve or never thought possible.
---------------------------------------------------------------------------
    \2\ https://benefits.va.gov/reports/abr/index.asp
---------------------------------------------------------------------------
    Not only is the Post-9/11 GI Bill the reason I am able to work for 
IAVA, it's also the reason I chose to work at IAVA. IAVA led the charge 
in 2008 to pass the first Post-9/11 GI Bill; their leadership in 2008 
to spearhead this landmark legislation was extremely important. For the 
next decade, IAVA fought for and defended the Post-9/11 GI Bill: from 
advocating for the Post-9/11 Veterans Educational Assistance 
Improvements Act passed in 2010 to defending the GI Bill against cuts 
and taxes in 2016 and 2017. Additionally, 88% of IAVA's members believe 
that the Post-9/11 GI Bill is either `Extremely Important' or 
`Important' to transitioning servicemembers and almost 90% oppose any 
cuts to the benefit, which is why IAVA's continued effort to Defend the 
GI Bill from cuts, waste, and abuse will last long into the future. \3\
---------------------------------------------------------------------------
    \3\ iava.org/survey
---------------------------------------------------------------------------
    In August 2017, with the backing of IAVA and many other Veterans 
Service Organizations, the Harry G. Colmery Educational Assistance Act, 
otherwise known as the Forever GI Bill, was signed into law and marked 
one of the largest expansions of veteran educational benefits since the 
original GI Bill in 1944. \4\ This expansion created a need for updated 
IT infrastructure within the VA to address new provisions in the law, 
such as modified MHA payments. According to the legislation, the VA had 
a deadline of August 1, 2018 - one full year after passage - to 
implement these changes, and as of this hearing, the VA has yet to do 
so. \5\
---------------------------------------------------------------------------
    \4\ https://veterans.house.gov/news/
documentsingle.aspx?DocumentID=2227
    \5\ https://www.nbcnews.com/news/us-news/veterans-haven-t-receive-
gi-bill-benefits-months-due-ongoing-n934696
---------------------------------------------------------------------------
    In September 2018, IAVA became aware that scheduled MHA payments 
had been inaccurate or missing. On September 14, IAVA sent a letter, 
along with 14 partner VSOs, to the VA expressing our disappointment in 
the Department's IT failures. \6\
---------------------------------------------------------------------------
    \6\ http://studentveterans.org/images/pdf/will/Forever-GI-Bill-
Delays--VSO-Letter-.pdf
---------------------------------------------------------------------------
    For the first time, on October 10, well into the Fall semester, the 
VA publicly acknowledged longer than normal processing times on their 
website and gave instructions for students who were experiencing 
financial hardships, such as falling behind on rent, utilities, or 
other important bills. \7\ This left students with no official 
explanation as to why they were unable to receive their benefits for 
nearly two months. The VA also left students with no timeline of when 
they would realistically be able to expect MHA payments, leaving 
students unable to properly plan their finances and adding undue stress 
to their semesters. We've heard about this first hand; student veterans 
have contacted IAVA's Rapid Response Referral Program (RRRP) that 
waited two months for their MHA payments and finally received them this 
week and another student veteran who had to drop a class because they 
could not afford their textbooks. To the student who had to drop a 
class due to the VA's mistake, the VA informed the student it will no 
longer reimburse the class and instead recommended that the student 
receive an ``F,'' damaging their GPA. As a former student veteran that 
relied solely on these MHA payments, I can say that all of these 
examples are not over exaggerated, as I would have experienced them 
first hand.
---------------------------------------------------------------------------
    \7\ https://www.benefits.va.gov/gibill/

---------------------------------------------------------------------------
The VA has been aware of these IT challenges since July 2018.

    In response to these delayed payments, VA implemented mandatory 
overtime and hired more processors to address the backlog. In addition, 
VA notified students with delayed GI Bill and MHA payments of the 
backlog while also ensuring that no veteran that had been overpaid 
would be fined or required to repay inaccurate GI Bill payments. While 
the VA has implemented steps to decrease and eliminate these delayed 
payments going forward, IAVA and partner VSOs remain concerned by the 
VA's late response time and lack of overall communication on this 
issue. If the VA was able to effectively communicate these potential 
issues to students, School Certifying Officials (SCO), school 
leadership, and stakeholders then all parties would be able to make 
informed decisions on how to best deal with a potential financial 
hardship in order to give a student veteran the best chance of success 
during the Fall semester.
    We are also deeply concerned about these payment issues compiling 
into similar or greater issues in the Spring semester. It is on that 
end that IAVA recommends two points of action: first that the VA 
immediately pay backlogged GI Bill benefit payments and secondly that 
the VA increases overall communication on similar issues going forward.
    Moving forward, the first priority needs to be ensuring that all 
backlog cases of nonpayment are processed. There are currently 82,000 
student veterans that are being adversely affected through inaccurate 
or delayed payments. \8\ This is simply unacceptable and must be fixed 
immediately. IAVA also hopes to see the VA stand by their word of not 
punishing students for overpayments that have occurred to no fault of 
the student.
---------------------------------------------------------------------------
    \8\ https://www.nbcnews.com/news/us-news/veterans-haven-t-receive-
gi-bill-benefits-months-due-ongoing-n934696
---------------------------------------------------------------------------
    It is imperative that the VA communicates any potential issue to 
the correct people in advance of the problem in order to decrease the 
overall negative impact. By working not only with SCOs but other key 
school administrators, schools would have been better prepared to help 
students facing financial hardships or delayed tuition payments. 
Schools were unable to respond to delayed payments in a timely manner 
due to a lack of overall communication from the VA; expanding 
communication to key stakeholders at schools around this issue will aid 
in supporting student veterans that are impacted by these technical 
issues.
    Looking forward to the Spring 2019 semester and beyond, the VA 
needs to begin planning and communicating their Spring 2019 plan now. 
As schools begin their enrollment of students they need to be assured 
that the VA will be able to pay their GI Bill benefits in full. 
Additionally, students need to be assured that they can rely on a 
proper MHA stipend from the VA in order to attend school. This is a 
benefit that has been earned with the student veterans' service and 
should not be in doubt.
    More broadly, IAVA calls on the VA to update their lagging IT 
infrastructure. This is an unfortunate recurring problem across all of 
VA that hampers more than just educational benefits. However, for this 
to happen Congress must provide appropriate funding and the VA 
Secretary must continue to make modernization efforts a priority VA-
wide. Finally, there must be steady leadership at the helm to ensure 
these technological changes are done in the proper way. Thus, the 
Senate must confirm an Assistant Secretary for Information and 
Technology, a position that has been left vacant that could offer 
leadership on these issues. \9\
---------------------------------------------------------------------------
    \9\ https://www.veterans.senate.gov/hearings/pending-nominations-
oawp-cio-09052018
---------------------------------------------------------------------------
    Again, I thank the Chairman and Members of the Committee for 
inviting me to express IAVA's views on this critical issue and we look 
forward to working with you.

                                 <F-dash>
    National Association Of Veterans' Program Administrators (NAVPA)
                             Submitted by:
                     President Keith A. Glindemann
STATEMENT OF PURPOSE

    The National Association of Veterans' Program Administrators 
(NAVPA) is an organization of institutions and individuals who are 
involved or interested in the operation of veterans' affairs programs 
and/or the delivery of services to veterans as Veterans' Education 
Program Administrators across the country. A Board of Directors elected 
at our annual conference governs NAVPA. The purpose of NAVPA is to 
promote professional competency and efficiency through an association 
of members and others allied with, and involved in, veterans' 
educational programs and to promote the development, improvement and 
extension of opportunities to any service member, veteran or dependent 
of a veteran, for his or her personal growth and development to its 
fullest potential. This is achieved through assisting with the 
assessment and attainment of individual needs, communicating and 
cooperating with communities, schools, agencies and organizations at 
the local, state, regional and federal levels; developing productive 
relations with the Department of Veterans Affairs, Department of 
Education, Department of Defense, and other federal or national 
Veterans Service Organization or agency serving veterans; participating 
in efforts to facilitate the education and/or training of educationally 
or otherwise disadvantaged veterans and to promote cooperative studies, 
research, evaluation, workshops, seminars, conferences, and other 
activities as may be desired or required to fulfill the purpose of 
NAVPA.

MEMBERSHIP

    NAVPA has served as the voice of advocacy for veterans in higher 
education since its founding in 1975. Our research, training, and 
policy initiatives have developed programs and support services to 
ensure veterans achieve their academic and professional goals. NAVPA's 
membership now includes 356 Institutions of Higher Learning across 46 
states to include Washington DC that represents over 431,000 veterans.

For The Hearing Record

    Honorable Chairman Arrington and Committee members, The National 
Association of Veteran Program Administrators (NAVPA) wish to have the 
following written remarks entered into the record for the hearing 
entitled ``A Continued Review of GI Bill Payment Delays.''
    NAVPA members work on college and university campuses across the 
country and most serve primarily as School Certifying Officials (SCO's) 
who are responsible for certifying VA education benefits to the 
regional processing centers in Buffalo, NY, Muskogee, OK and St. Louis, 
MO.
    During the fall 2018 semester, our members in each of these regions 
have experienced significant delays in the processing of GI Bill 
benefits. VA Central Office has communicated to schools that a series 
of information technology (IT) glitches created the delays, but have 
not provided specific guidelines as to when the delays will be 
resolved.
    NAVPA members have reported specific cases during the current fall 
semester of student veterans being referred to creditors and collection 
agencies because they were unable to cover housing, utility, 
transportation, and subsistence expenses. We have also been notified by 
our membership that student veterans were having to withdraw from the 
fall semester to return to the workforce to maintain housing and other 
living expenses.
    Our institutions and SCO's have worked individually with student 
veterans to assist them in securing grace periods for rent and utility 
payments. It is a precarious position for school officials to advocate 
with private creditors on behalf of student veterans, due to ``IT 
glitches'' at the VA.
    While advocating for our student veterans awaiting payment of their 
benefits with creditors is precarious for our membership, it is not our 
greatest concern. NAVPA's greatest concern is the impact from these 
delayed payments from the VA on our students. These delayed payments 
are creating undue stress to student veterans and will thus have a 
negative influence on their academic success.
    There are many unanticipated challenges for student veterans. 
Transition from active duty to the civilian sector can be precarious to 
include: new academic routines, which are less structured and more 
rigorous, can be overwhelming; financial concerns, such as how to pay 
for college or live independently outside of the military, can 
negatively impact the student experience; and preparing for increased 
decision-making responsibilities can be stressful. While a number of 
factors contribute to student veteran stress; our experience is that 
the most prominent of these stressors are related to their finances and 
the timely and accurate delivery of their GI Bill benefit.
    Student veterans, who participated in campus surveys across the 
country, have reported that financial stress related to the GI Bill has 
had a negative impact on academic performance or progress. This stress 
is forcing student veterans to juggle working fulltime while attending 
school. Higher education studies have shown that students working more 
than 20 hours a week during the academic year has a negative impact on 
academic progress. Students who work longer hours, leave less time for 
academic work, leading to decreased academic performance.
    Our membership has also reported that the delays in payment this 
fall has led student veterans to seek less than ideal financial loans 
to bridge the gap. We have students that have sought out loans from 
predatory lenders including ``payday'' outlets. Our concern is that the 
financial crisis that some of our students have experienced this fall 
semester, will again impede their ability to succeed in higher 
education.
    Staying in school and graduating is an important goal for student 
veterans and their families. It is NAVPA's belief that greater 
financial burdens due to delayed payments, will lead students to reduce 
coursework or drop out of school in favor of lower waged employment.
    Our membership firmly believes that the current generation of 
student veterans studying on our campuses have the ability and capacity 
to change the course of history in our country. We believe that the 
timely delivery of GI Bill benefits is paramount to our students 
realizing their academic potential and their success.
    The NAVPA Board of Directors and our membership respectfully 
request that the Committee continue to provide oversight, transparency, 
and accountability where deemed necessary to prevent future delays of 
GI Bill benefits to our nation's greatest heroes.

                                 <F-dash>
                   Student Veterans Of America (SVA)
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Committee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the delayed and inaccurate GI Bill payment delays 
experienced this semester.
    With more than 1,500 chapters representing nearly one million 
student veterans and military-connected students using VA benefits in 
schools across the country, we are pleased to share the perspective and 
recommendations for the path forward for those directly impacted by 
such delays.
    Established in 2008, SVA has grown to become the largest student-
centric, chapter-based organization in higher education and the third 
largest veteran service organization, a force and voice for the 
interests of veterans in higher education. With a myriad of programs 
supporting their success, rigorous research on student veteran 
outcomes, and ways to improve the higher education landscape, and 
advocacy throughout the nation. We place the student veteran at the top 
of our organizational pyramid. As the future leaders of this country, 
and some of the most successful students in higher education, fostering 
the success of veterans in school is paramount to their preparation for 
productive and impactful lives. \1\
---------------------------------------------------------------------------
    \1\ Shane, Leo. Military Times. Report: Young vets are more 
successful than their civilian peers. July 29, 2017. https://
www.militarytimes.com/veterans/2017/07/29/report-young-vets-are-more-
successful-than-their-civilian-peers/
---------------------------------------------------------------------------
    Edward Everett, our nation's 20th Secretary of State, and the 
former President of Harvard University was famously quoted as stating, 
``Education is a better safeguard of liberty than a standing army.'' 
While we have the finest military the world has ever known, the 
sentiment remains; the importance of education to our country's 
national security continues to be critical. Ensuring the success of 
student veterans on campus must first start with ensuring they have 
reliable and timely access to their earned education benefits. As we 
have seen, that is a challenge for some this past semester and we 
appreciate your continued attention to the issue.

Background

    The Harry W. Colmery Educational Assistance Act, more commonly 
known as the Forever GI Bill, was signed into law in August of 2017 and 
created the largest expansion of education benefits for veterans in 
nearly a decade. \2\ Since passage, the Department of Veterans Affairs 
(VA) has successfully implemented the majority of the Forever GI Bill's 
provisions. Unfortunately, those successes are being overshadowed by 
recent IT failings on two of the provisions, which created a larger 
than normal backlog of claims this semester and has left some students 
facing financial hardships as they wait for payments.
---------------------------------------------------------------------------
    \2\ Harry W. Colmery Veterans Education Assistance Act of 2017 
Sec. 108. Pub. L 115-48. (2017). https://www.congress.gov/bill/115th- 
congress/house-bill/3218.?
---------------------------------------------------------------------------
    The Forever GI Bill included provisions aimed at addressing 
inequities in the Monthly Housing Allowance (MHA) students receive. 
These changes require significant modifications to existing Education 
Service IT systems, but nearly three and a half months past the 
implementation date of August 1, 2018, and as of the writing of this 
testimony, those changes have yet to be implemented. \3\
---------------------------------------------------------------------------
    \3\ Student Veterans of America. VSO Response to Forever GI Bill IT 
Delays. https://studentveterans.org/images/pdf/will/Forever-GI-Bill-
Delays--VSO-Letter-.pdf
---------------------------------------------------------------------------
    In response to a March 2018 focus group outlining VA's plan to use 
zip codes to calculate campus-based MHA rates as required by section 
107 of the law, SVA raised concerns in an April letter with the planned 
strategy and the potential roadblocks we saw with VA's plans. Our 
concerns centered around the use of zip codes to define campus location 
instead of existing Department of Education coding mechanisms and the 
unintended consequences that could create. \4\
---------------------------------------------------------------------------
    \4\ Student Veterans of America. SVA Response to VA's Campus 
Definition. https://studentveterans.org/images/pdf/will/SVA-Response-
to-VAs-Campus-Definition.pdf
---------------------------------------------------------------------------
    As late as a July 2018 hearing before this Committee, there was a 
reassurance by VA that the IT updates needed to implement the MHA 
changes would be ready soon, and therefore School Certifying Officials 
were initially directed to wait to submit certification until the IT 
updates were implemented. However, by early August it became clear VA 
would not only miss the Forever GI Bill implementation deadlines 
because of continued IT challenges, but routine updates to MHA 
calculations - such as cost-of-living adjustments - would also not be 
calculated for Fall semester payments leading to inaccurate or 
significantly delayed payments. Only after SVA alongside other VSOs 
made clear the urgency of proceeding with certification and 
communicating the direction to proceed did VA make those 
communications, as detailed below.
    Beginning in September, SVA began to hear from student veterans 
that MHA payments were missing or inaccurate. On September 14, SVA 
along with fourteen other Veteran Service Organizations (VSOs) wrote VA 
to express our disappointment and concern over the continued IT 
failures and the lack of transparent communication on the issue to 
students and stakeholders. \5\ By mid-October, VA sent letters and 
emails to all GI Bill users, issued several statements online, and took 
internal steps to address the backlog. \6\ Throughout this process and 
per VA's guidance SVA has and will continue to encourage all student 
veterans with questions about their claim, or in need of immediate 
financial assistance, to contact VA directly, particularly where 
hardship will be incurred as a result of delays. Importantly, these 
hardships may include student veterans missing payments on bills which 
are due, utility disconnections, and even evictions (and possibly 
homelessness), which may all have long-term impacts to the student 
veterans' credit reports, and therefore ability to finance education 
beyond the GI Bill or even impact their career opportunities. Further, 
these hardships may impact family financial stability, and could even 
impact student veterans' overall well-being and mental health as a 
result of experiencing severe financial stress, which could in turn 
impact other VA departments by creating additional demand for programs 
and services.
---------------------------------------------------------------------------
    \5\ Student Veterans of America. VSO Response to Forever GI Bill IT 
Delays. https://studentveterans.org/images/pdf/will/Forever-GI-Bill-
Delays--VSO-Letter-.pdf
    \6\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration. Education and Training. https://www.benefits.va.gov/
gibill/
---------------------------------------------------------------------------
    Additionally, delay in providing direction to submit certifications 
reduced the ability of School Certifying Officials (SCOs) to meet their 
own workloads, in particular at colleges and universities that were 
understaffed from recommended levels of SCO-to-student veteran ratios. 
VA cannot process timely certifications that are not received timely, 
but SCOs could not submit the volume of certifications that were 
delayed until guidance to submit was received, compounding the 
challenge faced by student veterans in delay receiving their MHA. 
Further, while colleges and universities have largely allowed student 
veterans to continue in classes even absent payment of tuition, it is 
not clear that they allowed or will allow timely enrollment and 
registration for spring semester classes.
    We acknowledge VA recently implemented several policies to 
adjudicate its oldest claims and increased the total number of claims 
processing staff to address the backlog in recent weeks, but we remain 
concerned about the delayed reaction to the situation, limited 
transparency and communication to stakeholders at the onset of the 
issue, and continued IT infrastructure and leadership concerns that 
could potentially lead to similar issues in future semesters or updates 
to the Post-9/11 GI Bill. To that end, as the two leading organizations 
specifically dedicated to empowering student veterans SVA and Veterans 
Education Success, along with similar support from other VSOs as 
outlined in their own testimonies, propose the recommendations below to 
prevent similar situations from happening in the future.

Communication Recommendations

    SVA's chief concern, and recommendation moving forward, is to 
provide more consistent and transparent communication to students, 
school leadership, school staff, and stakeholders working alongside 
students during dynamic situations such as these delays. It is 
important VA acknowledge potential issues and proactively communicate 
those issues and ways to address them in a timely manner so that 
students, schools, and other stakeholders can make informed decisions 
about their education and finances.
    Communicate to the right audiences. VA initially communicated the 
proposed zip code changes and subsequent IT challenges to School 
Certifying Officials (SCOs), but key people at the institutional level 
were left out of the communication channels, namely school leadership. 
The SCOs on campus are the front-line of interaction between student 
veterans, schools, and VA, but many schools need leadership to be aware 
of such sweeping IT changes since they may require updates to school-
specific systems as well. Having information on the IT changes and IT 
challenges sent directly to all university presidents and provosts 
would have helped facilitate faster and more robust responses from 
schools themselves. Schools staff SCO duties based on normal and 
expected processing times, availability to process claim at a certain 
volume and in certain date ranges, and changes to their workload may 
require school leadership to intervene, including by providing 
necessary staff and/or overtime resources. Additionally, some schools 
have the ability to assist students facing financial hardships and 
ensure leniency is provided on delayed tuition payments, but if 
leadership is not made aware of potential challenges they cannot 
effectively provide assistance, nor plan effectively for increased 
volume of need.
    For students, the first post on the VA's Education and Training 
website about longer than normal wait times is dated October 10; and 
while the post provides information on how a student can make VA aware 
of a financial hardship it is posted nearly six-weeks after the start 
of the average Fall semester, potentially impacting housing payments 
(rent or mortgages) for two months, as well as other household expenses 
they depend on MHA to pay. \7\ Not communicating directly with students 
about the reality of why their claim is taking longer than normal can 
make it difficult for students and families to make informed financial 
decisions or to seek emergency aid.
---------------------------------------------------------------------------
    \7\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration. Education and Training. https://www.benefits.va.gov/
gibill/
---------------------------------------------------------------------------
    Communicate timely and proactively. The IT challenges VA is 
experiencing were known as early as late July 2018, but again, the 
first notice of the issue was not cited on the Education and Training 
website until October 10 2018, marking a significant amount of time 
between knowing there was an issue and sharing widely the issue 
existed. \8\ Many of the same challenges presented by not communicating 
with all the right audiences holds true for challenges with not 
proactively and timely communicating those issues. Schools do not know 
if students may need additional financial assistance or may not 
understand why tuition payments are delayed; students may not be able 
to properly prepare their personal finances to fully provide for 
themselves until MHA payments are sent. Given the demographics of the 
student veteran population, many of whom have dependents, MHA payments 
are heavily relied upon for daily living expenses and great care and 
respect should be given to communicating any issue with payments well 
in advance of the issue or as soon as an issue is known. \9\ These are 
earned benefits being used to empower veterans and their families 
through higher education, we must do better to inform all involved when 
those benefits may not be distributed as expected.
---------------------------------------------------------------------------
    \8\ Id.
    \9\ Student Veterans of America. ``Results from the 2016 SVA Census 
Survey: Student Veteran General Breakdowns''. December 7, 2016. https:/
/studentveterans.org/images/pdf/2016-SVA-Census-Survey-Student-Veteran-
General-Breakdowns-120716.pdf.
---------------------------------------------------------------------------
    Communicating with transparency. The potential for delayed payments 
because of a backlog was not communicated with much transparency early 
in the semester, even though the issue should have been obvious given 
the surge of claims in early August 2018. Further, it was first 
communicated that students would see inaccurate payments, but that all 
students would be paid and there was no concern raised about 
significantly delayed MHA payments. That sentiment was even reassured 
to the Senate Committee on Veterans Affairs (SVAC) by the VA Secretary 
in September 2018. \10\ However, we now know that is not the case.
---------------------------------------------------------------------------
    \10\ Wilkie, Robert. Testimony for Hearing on the Topic of ``The 
State of the VA: A 60 Day Report.'' September 26, 2018, Senate 
Committee on Veterans' Affairs, https://www.veterans.senate.gov/
hearings/the-state-of-the-va-a-60-day-report.
---------------------------------------------------------------------------
    Again, students should be made aware of potential delays or 
shortcomings in their MHA payments before they make financial 
decisions, not several weeks or months after starting a new semester. 
By not being wholly forthcoming about the potential for delays and 
inaccurate payments, students have the potential to face unnecessary 
financial hardships and barriers to success on campus. Additionally, 
and to reiterate the communication recommendations already stated, if 
school leadership and student veterans are not made fully aware of 
payment issues they cannot coordinate a meaningful response or plan-of-
action on their own campuses.
    Owning mistakes and missed opportunities is difficult, and VA has 
done more in recent weeks to share what is happening and what students 
can do to address hardships, but when we remember these payments are 
how people pay for food, rent, and general living expenses we must do a 
better job of communicating the issues with full transparency as soon 
as they are known. \11\
---------------------------------------------------------------------------
    \11\ Id.

---------------------------------------------------------------------------
Next Steps Recommendations

    Immediately Process Any Remaining Cases of Nonpayment. While VA has 
made efforts to reduce the GI Bill claims backlog in recent weeks, any 
outstanding claims or instances of nonpayment must be processed and 
paid as soon as possible and prioritized above all other work. This 
recommendation goes without saying, but it is still important to note.
    Begin Processing and Communicating the Plan for Spring 2019 
Semester. What we have seen unfold over the last five months cannot be 
repeated again, and especially during the upcoming Spring semester. VA 
must begin widely communicating the plan for submitting and processing 
claims for the Spring 2019 semester to schools and students. Submitting 
these claims should not be held up, again, for an IT system that is not 
projected to function properly with sufficient time to train SCOs, 
notify school leadership, and timely submit claims to prevent a second 
backlog. We are quickly approaching the normal time schools begin 
processing Spring semester enrollments, we cannot repeat the missteps 
of last summer. The time to act on making decisions for the Spring 2019 
semester is now, we need strong and communicative leadership more than 
ever on this specific issue.
    Maintain Mandatory Overtime. Since there are ongoing IT challenges 
and a series of processing requirements on the horizon, additional man-
hours will still be needed to try and prevent a significant backlog 
during the Spring 2019 semester. This will be especially important as 
VA considers how to process both Spring 2019 semester claims and how to 
rectify improper Fall 2018 semester payments.
    Make Fall 2018 Semester Payments Whole and Accurate. Since general 
updates to MHA rates and the sections pertaining to MHA in the Forever 
GI Bill were not implemented by the August 1, 2018 deadline, most 
students received inaccurate MHA payments for the Fall semester. VA has 
previously stated making these payments whole while not penalizing 
overpayments will occur. That must remain true, communicated routinely 
to schools and students, and be completed in a judicious manner once 
the IT system allows for an accurate understanding of who is impacted 
and what specific dollar amounts are needed to make students' payments 
whole.
    Address Lagging IT Infrastructure. Antiquated VA IT systems causing 
modern-day challenges is nothing new. From health care to disability 
compensation claims processing and now upgrades to Education Service's 
IT systems, the consistent dependency on outdated programming creates a 
ripple effect of consequences at the expense of veterans' timely and 
dependable access to earned benefits. As we approach the end of the 
second decade in the twenty-first century, the time is long past due to 
address this systemic issue. In short, it seems we have run out of IT 
Band-Aids; VA Education Service platforms are in desperate need for a 
system that can adapt and change with the modern landscape.
    To see such sweeping changes a minimum of two things must happen: 
One, we need Congress to provide sufficient appropriations, especially 
for provisions like the IT funds in the Forever GI Bill that have been 
authorized, and two, we need the VA Secretary to take a continued 
interest in this issue and make it a stated priority when discussing 
modernization efforts. Specifically, for Congress, there is a need to 
go beyond oversight on this issue and tackle the looming and difficult 
task of discussing the true modernization of IT functions for VA 
Education Service. For the VA Secretary, we ask he add ``and GI Bill'' 
when discussing his modernization priorities. \12\ It seems like a 
simple request, but when it is left out of the conversation and the 
only things routinely heard revolve around modernization of IT systems 
for health care delivery and disability claims, it can easily become 
out of sight, out of mind. We know this is an important modernization 
effort for the VA Secretary and by publicly adding ``and GI Bill'' to 
his list of modernization priorities it will ensure the message is 
heard and carried out at all levels of VA and the community supporting 
VA. We know this Committee and the VA Secretary can take on these 
challenges; we look forward to working together to find a resolution to 
this perennial problem.
---------------------------------------------------------------------------
    \12\ Wilkie, Robert. Testimony for Hearing on the Topic of ``The 
State of the VA: A 60 Day Report.'' September 26, 2018, Senate 
Committee on Veterans' Affairs, https://www.veterans.senate.gov/
hearings/the-state-of-the-va-a-60-day-report.
---------------------------------------------------------------------------
    Feasibility on Batch Payments. The Department of Education 
processes payments to schools prior to the start of the semester based 
on historical enrollment data from previous years. It is an effective 
process that allows schools and ED to operate without jeopardizing the 
financial situation of schools or students. We suggest studying the 
feasibility of incorporating lessons learned from the Department of 
Education and its use of batch payments as a potential way of 
alleviating some of the front-end work VA must to do certify both MHA 
payments and tuition payments. We acknowledge there are foundational 
differences between how the Department of Education and VA function, 
but greater cross-agency communication and collaboration can still 
provide valuable insight.
    In the meantime, we want to thank the House of Representatives for 
passing the SIT-REP Act, which would require schools to adopt policies 
that do not penalize students for VA's delayed tuition payments. \13\ 
While the burden of delayed payments should not fall on the schools 
either and should be addressed at the VA level directly, this bill will 
at least ensure students are not left feeling the consequences of 
bureaucratic red tape. We urge the Senate to pass this bill before 
adjourning in December.
---------------------------------------------------------------------------
    \13\ Servicemembers Improved Transition through Reforms for 
Ensuring Progress Act, H.R. 4830, 115th Congress. (2018) https://
www.congress.gov/bill/115th-congress/house-bill/
4830?q=%7B%22search%22%3A%5B%22SIT-REP%22%5D%7D&r=1.
---------------------------------------------------------------------------
    Provide Students Accurate Benefits Information. Equipping students 
with access to near real-time information on the status of their claim 
and any potential roadblocks to timely processing of their claim would 
help alleviate much of the confusion experienced over the last few 
months. Additionally, creating a simple monthly statement of benefits 
breaking down the various types of payments sent to schools and 
students, similar to a paystub, would help students understand their 
education benefits holistically.
    Appropriate Staffing and Leadership Continuity. In addition to the 
infrastructure challenges caused by an aged VA IT system, we also have 
concern over the leadership team at VA's Information and Technology 
office being in flux for some time now. VA is committed to taking on an 
aggressive IT overhaul of many business lines in the next few years, we 
strongly believe the Education Service systems should be included in 
that overhaul, but there must be someone at the helm capable of leading 
that change, committed to seeing it through, and provided sufficient 
resources to do so. Congress arguably plays the most important part in 
enabling or inhibiting the necessary changes on this issue. To start, 
the Senate has yet to confirm a nominee for the Assistant Secretary for 
Information and Technology and should do so before the end of this 
Congress. \14\
---------------------------------------------------------------------------
    \14\ Gfrerer, James. Testimony for Hearing on the Topic of 
``Pending Nominations (OAWP, CIO).'' September 5. 2018. Senate 
Committee on Veterans' Affairs, https://www.veterans.senate.gov/
hearings/pending-nominations-oawp-cio-09052018.
---------------------------------------------------------------------------
    The success of veterans in higher education is no mistake or 
coincidence. Research consistently demonstrates this unique population 
of non-traditional students is far outpacing their peers in many 
measures of academic performance. \15\ Further, this success in higher 
education begets success in careers, in communities, and promotes 
family financial stability, holistic well-being, and provides the all-
volunteer force with powerful tools for recruitment and retention. At 
our 10th annual national conference in 2018, the President and CEO of 
SVA, Jared Lyon, shared the story behind the quote on our anniversary 
challenge coin, ``Some attribute the following text to Thucydides and 
others note that it's a paraphrase of a book written by Sir William 
Francis Butler from the late 1800's. The reality, either way, rings as 
true today as it ever has, and the phrase goes like this, `The nation 
that makes a great distinction between its scholars and its warriors 
will have its thinking done by cowards and its fighting done by 
fools.'" \16\
---------------------------------------------------------------------------
    \15\ Cate, C.A., Lyon, J.S., Schmeling, J., & Bogue, B.Y. (2017). 
National Veteran Education Success Tracker: A Report on the Academic 
Success of Student Veterans Using the Post-9/11 GI Bill. Student 
Veterans of America, Washington, D.C., http://
nvest.studentveterans.org/wp-content/uploads/2017/03/NVEST-Report--
FINAL.pdf.
    \16\ Jared Lyon, Defining Our Future: Today's Scholars, Tomorrow's 
Leaders, Jan. 5, 2018, https://www.linkedin.com/pulse/defining-our-
future-todays-scholars-tomorrows-leaders-jared-lyon
---------------------------------------------------------------------------
    Supporting that success is paramount, and it starts with providing 
necessary resources and abilities at VA to successfully manage 
education benefits. If we do not have sufficient attention to and 
prioritization of education benefits by VA we will continue to see 
issues like these arise.
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Committee, the 
House Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

APPENDIX A
    April 24, 2018

    Secretary Robert Wilkie
    U.S. Department of Veterans Affairs
    810 Vermont Avenue
    Washington, DC

    Dear Mr. Secretary,

    We are writing you with concerns about VA's proposed implementation 
of Sec.  107 of PL 115-48-the Forever GI Bill, officially known as the 
Harry W. Colmery Veterans Educational Assistance Act. As a leader of 
the coalition of veteran service organizations that helped secure the 
passage of the law, we have a vested interest in its effective 
implementation.
    Specifically, Section 107 of the Forever GI Bill requires VA to 
base the monthly housing stipend rate for the Post-9/11 GI Bill on the 
location of ``the campus of the institution of higher learning where 
the individual ``physically participates in a majority of classes'' 
versus where the ``institution of higher learning'' itself was located. 
In cases where schools have online or satellite programs, this change 
makes a big difference, and is scheduled to become effective on August 
1st, 2018.
    Unfortunately, VA is poised to adopt an overly broad definition of 
the word ``campus'' that will have the following troublesome affects:

    <bullet>  Places a heavy administrative burden on schools and lacks 
adequate compliance controls,
    <bullet>  Exceeds the scope of PL 115-48 and;
    <bullet>  Makes VA's rules incongruent with similar provisions in 
the Higher Education Act.

    Our recommendation is that VA align the interpretation of the word 
``campus'' in Sec. 107 of PL 115-48 with an already well-established 
definition that the majority of higher education is familiar with, the 
Department of Education's definition of ``campus'' in 34 C.F.R. 
Sec. 600.2 and ``additional location'' in 34 C.F.R. Sec. 600.10(b)(3) 
(See Appendix A). Specifically, VA should only recognize Title IV 
approved campuses that have been assigned an 8-digit Department of 
Education (ED) Office of Postsecondary Education Identification (OPE 
ID) code. \17\ ED uses this code to identify schools that have Program 
Participation Agreements (PPA) so that its students are eligible to 
participate in Federal Student Financial Assistance programs under 
Title IV regulations.
---------------------------------------------------------------------------
    \17\ The first 6-digits of the OPE ID number relate to the 
education institution, and are followed by a 2-digit suffix used to 
identify branches, additional locations, and other entities that are 
part of the eligible educational institution.
---------------------------------------------------------------------------
    This alignment will significantly simplify VA's implementation of 
PL 115-48, make it easier for schools to comply with the new 
requirements and dramatically reduce the potential for fraud and abuse. 
All of these outcomes matter a great deal to the end users of the GI 
Bill: veterans and their families. Below we outline these concerns in 
greater detail, and hope to see this alignment come into effect before 
student veterans are paying the price of a botched implementation of 
the Forever GI Bill.
    Since most schools do not centrally record the location of a 
student's internship or practicum this new definition would require a 
heavy lift for schools to implement. Specifically, VA will require 
schools ``to provide formal documentation to the Compliance Survey 
Specialist to verify specifically where a course, internship, 
externship, or practicum is taking place.''

Heavy Burdens

    In a recent briefing to veterans groups and schools, VA's Education 
Service (EDU) stated that their interpretation Sec. 107 of the word 
``campus'' includes all of the following:

    <bullet>  ``The individual campus of a school where the student is 
taking classes (i.e. the school's science center, humanities building, 
or athletic center)
    <bullet>  The physical location where a student is learning in a 
study abroad program
    <bullet>  Any internship, externship, practicum or student teaching 
site''

    While we agree with the first two definitions of campus, we are 
concerned that the third definition, ``Any internship, externship, 
practicum or student teaching site'' will place a heavy administrative 
burden on schools and lacks any adequate compliance controls. Schools 
will need to develop new reporting regimes to get that type of 
information from the students, employers and/or department heads 
placing a heavy administrative burden on already overwhelmed school 
certifying officials (SCOs).
    Unfortunately, it will be nearly impossible for VA or State 
Approving Agencies to verify the addresses and/or locations being used 
to determine the monthly education benefits. For example, in some 
cities a switch in zip codes can mean the difference of hundreds of 
dollars a month per veteran. VA will not know if a student is taking an 
internship at an employer's corporate headquarters with a higher BAH 
rate or a smaller branch location with lower BAH rate. The inability 
for VA to validate these addresses will likely lead to some bad actors 
(schools, employers and/or veterans) that abuse this new payment 
regime.
    House Report 115-247, states that ``The Committee's intent is to 
give VA a methodology that is administratively workable and cannot be 
taken advantage of by schools. If VA finds that the new methodology is 
not workable or is still being taken advantage of, then it is the 
Committee's expectation that VA will alert the Committee'' (See 
Appendix B). We believe that VA's proposed definition of ``campus'' can 
be easily take advantage by schools and therefore VA should adopt a 
methodology that allows for true compliance controls.

Exceeds Scope of PL 115-48

    Previously, the housing allowance under the Post-9/11 GI Bill was 
based on ``the monthly amount of the basic allowance for housing. for a 
member with dependents in pay grade E-5 residing in the military 
housing area that encompasses all or the majority portion of the ZIP 
code area in which is located the institution of higher learning at 
which the individual is enrolled.''
    PL 115-48 replaces ``the institution of higher learning at which 
the individual is enrolled'' with ``the campus of the institution of 
higher learning where the individual physically participates in a 
majority of classes.'' The new language creates a two-part test for 
determining how much a living allowance should be (1) the campus of the 
institution of higher learning and (2) where the individual physically 
participates in a majority of classes. The problem with VA's proposal 
to include ``internship, externship, practicum or student teaching 
site'' in the definition of campus is twofold: (1) internships do not 
usually occur on a ``campus'' and (2) internships do not usually 
involve formal academic ``classes.''
    VA's proposed definition of ``campus'' exceeds the scope of PL 115-
48, because benefits will not be determined based on the location of a 
campus or classes, both of which are requirements in the new law. VA 
EDU originally proposed a definition of campus that was more 
circumspect and aligned with their interagency partners. However, after 
meetings with the staff of various veterans affairs Committees, they 
were strongly encouraged to greatly expand that definition even beyond 
the text of the public law itself. VA should return to the text of the 
PL 115-48 for guidance on how ``campus'' should be defined.

Incongruent with the Higher Education Act

    The Higher Education Act (HEA) and the Department of Education (ED) 
have a long history of defining the criteria for a ``campus'' and/or an 
``additional location''. According to ED a ``campus'' is: ``A location 
of an institution that is geographically apart and independent of the 
main campus of the institution.
    The Secretary considers a location of an institution to be 
independent of the main campus if the location (1) Is permanent in 
nature; (2) Offers courses in educational programs leading to a degree, 
certificate, or other recognized educational credential; (3) Has its 
own faculty and administrative or supervisory organization; and (4) Has 
its own budgetary and hiring authority.''
    According to ED an ``additional location'' is: ``any location that 
an institution establishes after it receives its eligibility 
designation if the institution provides at least 50 percent of an 
educational program at that location, unless (1) The Secretary approves 
that location under Sec.  600.20(e)(4); or (2) The location is licensed 
and accredited, the institution does not have to apply to the Secretary 
for approval of that location under Sec.  600.20(c), and the 
institution has reported to the Secretary that location under Sec.  
600.21.
    The Department of Education assigns an eight-digit OPE ID to every 
campus and additional location, which is used to determine eligibility 
for Title IV purpose. For example, while VA has over 70 facility codes 
for the University of Phoenix (UoP). The Department of Education has 
over 700 eight-digit OPE ID codes for UoP. These codes are also 
validated by accreditors. VA should leverage the department of 
Education codes because they will significantly simplify VA's 
implementation of PL 115-48, make it easier for schools to comply with 
the new requirements and dramatically reduce the potential for fraud 
and abuse.
    We greatly appreciate the work of your office and that of your 
colleagues on this important proposal to develop grants that support 
student veteran centers. Please feel free to contact me directly if you 
should have any additional questions on this matter.

    Sincerely,

    Jared Lyon
    President & CEO

APPENDIX B

    September 14, 2018

    Secretary Robert Wilkie
    US Department of Veterans Affairs
    810 Vermont Ave, NW Washington, DC 20420

    Dear Secretary Wilkie:

    The undersigned military and veterans service organizations, 
representing millions of veterans, service members, their families, and 
survivors, write to express our disappointment over ongoing information 
technology (IT) issues impacting GI Bill students' Monthly Housing 
Allowances (MHA). Given the significant impact monthly housing 
allowances have on the lives of over one million veterans and families, 
we urge swift attention and oversight from your office into the issues 
surrounding the Office of Information and Technology (OI&T).
    The Harry W. Colmery Act, better known as the Forever GI Bill, 
included several provisions aimed at addressing inequities in the MHA 
students receive. These changes require significant modifications to 
the existing education IT systems, but nearly six weeks after the 
August 1 implementation date, and nearly a month into the Fall 2018 
semester, the IT systems are still failing. VA should immediately 
address the following:
    Correct and prompt payments. The failure of VA's OI&T to institute 
a timely software update to VA's Long Term Solution (LTS) claims 
processing system are negatively affecting the accuracy of payments 
sent to students and schools. These incorrect payments are asking 
veterans, their families, and schools to bear the burden of VA's 
problems. The consequences of this burden on students and higher 
education institutions lead to heavy financial burdens. Institutions of 
higher learning rely on timely and accurate payments from VA to cover 
the cost of tuition for students. Furthermore, students rely on MHA to 
pay for their living expenses such as rent, utilities, and food.
    Greater Communication. Transparent communication from VA on these 
issues have been woefully lacking. It took several weeks into the 
current semester before any communication was sent to students and 
schools have received little information beyond ``wait and see.'' 
Transparency on what to expect and when to expect it, from all levels 
of leadership at VA, is critical to helping students and schools make 
informed decisions.
    Reassurance on payment issues. VA has stated they will not collect 
overpayments and will rectify underpayments in cases due only to these 
IT delays. VA should strongly stress to students and schools that they 
will not bear any undue financial burden for VA OI&T's delays and 
should apply a liberal standard to the reason behind incorrect 
payments.
    Upcoming changes. Given VA has struggled to reach its goals of 
implementing section 107 of the Forever GI Bill in addition to the 
regular, annual updates to MHA by August 1, we are concerned about VA's 
ability to implement additional sections requiring IT upgrades. VA has 
the opportunity to get ahead of the next round of updates and we urge 
strong leadership and oversight over the implementation of this 
provision.
    We appreciate the dedication and attention given by VA toward 
implementing the majority of Forever GI Bill's 34 provisions on time. 
The Veterans Benefits Administration office of Education Service has 
been consistently proactive in communicating to stakeholders on issues 
related to the timely and effective implementation of these provisions. 
However, the inability by VA OI&T to adequately and timely meet the 
requirements of the law to support VBA's requirements - especially one 
that affects a veterans' wellbeing during school - is an organizational 
and customer service failure at the highest level. They have left 
students and schools confused, with improper payments, and absent a 
clearly articulated timeline for when these issues will be fixed. We 
also acknowledge it is imperative VA receive the necessary resources to 
have an effective IT system that supports all of its constituents; we 
encourage Congress to work quickly to meet those needs.
    Students, schools, and taxpayers need assurances and answers to how 
this will be resolved and prevented in the future. We look forward to 
continuing working together with VA to resolve these issues.

    Sincerely,

    Joseph Chenelly
    Executive Director
    AMVETS National Headquarters

    Frank Yoakum
    Sergeant Major, U.S. Army (Retired) Executive Director
    EANGUS

    Kristofer Goldsmith
    President
    High Ground Veterans Advocacy

    Paul Rieckhoff
    Founder & CEO
    Iraq & Afghanistan Veterans of America

    Adam Behrendt
    President
    Ivy League Veterans Council
    Barry Schneider National Commander
    Jewish War Veterans

    Douglas Greenlaw
    National Commander
    Military Order of the Purple Heart

    Carl Blake
    Executive Director
    Paralyzed Veterans of America

    Jared Lyon
    President and CEO
    Student Veterans of America

    Larry Madison
    Legislative Director
    The Enlisted Reserve Association

    Laura L'Esperance
    Senior Vice President, External Affairs
    The Mission Continues

    Bonnie Carroll
    President and Founder
    Tragedy Assistance Program for Survivors

    Carrie Wofford
    President
    Veterans Education Success

    Robert Wallace
    Executive Director
    Veterans of Foreign Wars

    Rick Weidman
    Executive Director
    Vietnam Veterans of America


                                 <F-dash>
            Tragedy Assistance Program For Survivors (TAPS)
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults; Good Grief Camps for children; and casework assistance, 
connections to community-based care, online and in-person support 
groups, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided 
free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 80,000 bereaved 
surviving family members. For more information, please visit TAPS.org.
    TAPS receives no government grants or funding.
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of the House Veterans Affairs Committee, the Tragedy Assistance 
Program for Survivors (TAPS) thanks you for the opportunity to make you 
aware of issues and concerns of importance to the families we serve, 
the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen - those who fall in 
combat, those who fall from invisible wounds and those who die from 
accidents, illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Forever GI Bill

    TAPS is grateful to have been involved in the passage of the 
historic Forever GI Bill in 2017. Several of the key components were 
legislative priorities of TAPS for many years, including access to the 
Yellow Ribbon Program for survivors and an increase in Dependents 
Education Assistance. TAPS is very concerned though that the 
implementation has been poorly executed. Some of the concerns brought 
to us include excessive wait times for payments, long waits for the 
call center, payments that were incorrect, and inconsistent responses 
from VA on what the problems have been and timelines. We are also very 
concerned that this backlog, which has already impacted the Fall 
Semester for many students, will now carry over into the Spring 
Semester.

GI Bill Comparison Tool

    Throughout the implementation process, there have been several 
issues with the GI Bill Comparison Tool that should not have been 
impacted. On September 5, 2018, all of the Basic Allowance of Housing 
(BAH) rates from the tool were removed. VA representatives stated they 
have no knowledge of why this happened and could not give an accurate 
guess as to how long those numbers were missing. TAPS only noticed it 
because a surviving spouse brought it to our attention. Within hours of 
TAPS informing HVAC of this issue, the BAH rates were restored but 
still reflecting 2017/ 2018 not 2018/2019 rates.
    On October 3, 2018, all of the student complaints were removed from 
the Comparison Tool. The flags were still in existence but the data 
showing how many and the type of complaints were missing. TAPS 
immediately notified HVAC of this concern and the complaints were 
restored within a few hours, but again VA has no knowledge of how or 
why this happened.
    TAPS is very concerned with how long these issues existed before 
they were caught and how many students could not access BAH rates 
during that time frame. The Comparison Tool is not a part of the IT 
updates, therefore it should not have been tampered with.

Section 110

    Section 110 of the Forever GI Bill was split into two parts. The 
Shawna Hill amendment, which allows a service member to transfer 
benefits to a new dependent if the original dependent dies, was 
successfully implemented by the Department of Defense. However, the 
portion that allows survivors to transfer amongst each other after the 
death of a service member falls under VA. When we requested the 
application for survivor to survivor transfer on August 23, 2018, we 
were told there was not one. Instead we were informed that they can 
``request'' it using the ``ask a question'' function on VA.gov. The 
following quote is taken directly from the response we received from 
VA:
    ``If the transferor is deceased, to initiate a transfer a survivor 
may request to transfer their remaining entitlement to another eligible 
dependent of the Transferor via Right Now Web https://
gibill.custhelp.va.gov/.''
    TAPS requests that VA create an actual physical application to 
ensure that transfer from survivor to survivor is done in a way that 
protects survivors and the VA. With no application there is no 
signature or requirement that shows who requested it. This could cause 
issues in the future, such as one sibling doing it without the others 
knowledge, etc.

Negative Impact

    The delayed payments and inconsistent information from VA have had 
a negative impact on surviving families and veterans. The following is 
from a surviving spouse, highlighting the impact of the delayed 
payments:
    ``I had perfect credit and money in savings 2 months ago, but I 
just haven't been as prepared as I thought. I gave my daughter money 
while waiting on the VA to pay, because I figured I could afford it 
since I would have my school money soon. I am now behind on 3 small 
credit cards and they are calling for payments, my credit score has 
taken a hit. I cry every day.''

    - Surviving spouse and child using the Fry Scholarship, Texas

Suggested Actions

    TAPS, along with several VSOs, strongly believes that the following 
steps need to be taken to ensure that the VA is able to handle the 
remaining implementation and be held accountable.

    1.Reinstate the position of Deputy Undersecretary for Economic 
Opportunity or create a fourth administration in VA for Economic 
Opportunity to ensure that the GI Bill is given the tools it needs 
going forward.

    2.Conduct a feasibility study into using batch payments, similar to 
how the Department of Education pays Title IV funds.

    3.Pass the SITREP Act on the Senate side to ensure students are not 
penalized by schools because the VA is delayed in making payments. TAPS 
raised this issue a year ago because of our concerns.

    4.Mandate that VA immediately appropriate the $30 million in IT 
Funds that was included in the Forever GI Bill.

    TAPS looks forward to working with both the Committee and VA to 
ensure that all veterans and survivors are paid and that the new IT 
systems work properly so that we do not have these issues going 
forward.
    It is the responsibility of the nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                    Veterans Education Success (VES)
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee:

    Veterans Education Success (VES) is a non-profit organization whose 
mission is to protect and defend the integrity of the GI Bill for those 
who have sacrificed on behalf of our country. In addition to research, 
providing free case work to students having trouble with GI Bill or 
impacted by predatory schools, and elevating the voices of students to 
share with policy makers both their positive and negative experiences 
in higher education, we are focused on addressing ways to increase the 
continued academic success of military-connected students in their 
pursuit of their academic goals.
    We appreciate the opportunity to share our perspective on the 
recent efforts of the Department of Veterans Affairs (VA) to implement 
the Harry W. Colmery Educational assistance act of 2017 (Public Law 
115-48). This law, also known as the Forever GI Bill, included several 
provisions that were to be implemented as of August 1, 2018. One of 
these provisions, Section 107, was aimed at addressing inequities in 
the Monthly Housing Allowances (MHA) students receive.

Background

    On March 7, 2018, VA held a roundtable with key stakeholders to 
address the plan for implementation of Section 107. The decision had 
been made to calculate MHA based on the zip code of the majority of 
classes the student was taking. Veterans service groups expressed 
significant concern over VA's plan and ability to implement these 
provisions in a timely manner. The groups recommended that, instead of 
using zip codes, VA use the codes already in existence at the 
Department of Education. VA rejected this recommendation and reassured 
concerned stakeholders that it would be able to implement all 
provisions by the established deadline.
    On June 12th, VA hosted a webinar for school certifying officials 
(SCOs) to explain the new certification process. During this call, 
schools were encouraged to hold off on submitting certifications until 
the new upgrade to the IT system was implemented. \1\ On July 16, VA 
communicated to the schools they could submit certifications with the 
caveat that they would have to resubmit certifications with the zip 
codes for each class when the new system was complete. \2\ It wasn't 
until August, when schools had still not heard anything about the new 
system, that SCOs decided to no longer wait for an update from VA and 
submit their claims.
---------------------------------------------------------------------------
    \1\ https://www.benefits.va.gov/GIBILL/docs/presentations/
WebinarQuestionsandAnswers061218.pdf
    \2\ https://www.benefits.va.gov/GIBILL/docs/presentations/SCO--
Webinar--07--17--2018.pdf
---------------------------------------------------------------------------
    In July, VA confirmed the concerns of VSOs when it announced that, 
due to issues with updates to the IT system, it would not be able to 
implement Provision 107 by August 2018. Instead it would use the 2017 
rates for both MHA and for Yellow Ribbon but that students would still 
receive MHA money without the 2018 cost of living adjustment (COLA) and 
schools would still receive payments.
    On August 31, VBA's Monday Morning Workload report showed over 
238,757 pending claims. This, in comparison to the 163,065 pending 
claims on the same day in 2017 was concerning, yet constituents 
continued to receive very little communication from VA. When the 
backlog hit a high of 248,396, almost half of the estimated 500,000 
students using education benefits, on September 21, over a month into 
the new semester, VA issued its first email to beneficiaries informing 
them of potential delays. It was not until October 9, when there were 
still 180,000 claims not yet processed for the Fall semester, that VA 
communicated how bad the delay really was. It was too little too late.
    VES started to receive complaints from students and schools that 
they were not receiving proper payments for MHA or for tuition in early 
September. There were no complaints about students receiving wrong 
payments but about students not receiving any payments. Students were 
concerned because they rely on their MHA to pay their bills, including 
rent, utilities, and food. Without this money they had no way to 
support themselves. As late as October 23, approximately two months 
into the school year, VES spoke with three law students at George 
Washington University who had not yet received any MHA.
    By early October, VES also began to hear complaints from students 
about being charged late fees, being threatened to be dropped from 
classes, and/or not being allowed to register for spring semester 
classes because of the school having not received payment from VA for 
their benefits.

Recommendations Moving Forward

    While VA has worked hard to rectify this unfortunate situation 
since early October, given the significant impact monthly housing 
allowances have on the lives of over one million veterans and families, 
we want to ensure lessons are learned and the same mistakes are not 
made from this point moving forward. To that point, Veterans Education 
Success and Student Veterans of America, the two leading organizations 
focused on student veteran success, make the following recommendations:

    1.Improved Communication - While communication since October 9 has 
drastically improved, communication leading up to that point was 
lackluster. Therefore, we ask VBA from this point forward to:

    a. Communicate Proactively - It is hard to know how VA missed the 
severity of the situation with the onslaught of certifications they 
received towards the end of August. With a failing IT system and 
limited manpower to manually process these claims, it would seem 
obvious that this was going to be a much bigger issue than VA 
originally thought. Moreover, even if VA believes a problem will not be 
widespread, it would be wise in the future to proactively communicate 
with SCOs and students about the potential for problems, in order to 
help identify and head off such problems. Proactive communication early 
on to keys stakeholders would have been beneficial as we worked to 
support those students impacted by the situation at hand. While we 
understand the desire of VA to focus on addressing the IT issues and 
processing certifications, it is inexcusable that students did not 
receive any communication until the end of September.

    b. Communicate with transparency - From early on, VSOs had 
communicated concern over VA's ability to implement some of the 
provisions of the Forever GI Bill by the August 1 deadline. When asked 
about these concerns, VA has repeatedly communicated that they were on 
target to implement provisions of the Forever GI Bill in a timely 
manner and without challenge. Had VA been more transparent with key 
stakeholders, we could have better prepared students for what might 
follow. With no real substantive data or knowledge of how significant 
the problem was, VSOs were unable to effectively support students.

    c. Communicate clearly, concisely - Communication from VA has, at 
times, been confusing and contradictory. School certifying officials 
and administrators shared with VES the concerns they had over the 
communication they had received thus far. One official referred to the 
directions for certification to be, at times contradictory, and often 
very confusing. Schools are still unsure whether or not they should 
start submitting claims for the spring semester without the update to 
VA-Once. Some are currently planning on submitting but others are still 
waiting for instructions from their ELR on what to do. If they wait too 
long in hopes of it being fixed, we risk the same onslaught of 
certifications in the spring semester consequently leading to another 
massive backlog of unprocessed claims and students without their MHA.

    2. General Recommendations

    a. Immediately Process Remaining Cases of Nonpayment - The end of 
the Fall semester is quickly approaching, yet a large number of claims 
have yet been processed. They must be processed immediately.

    b. Begin Processing and Communicating for Spring 2019 Semester - To 
reduce a potential issue with another backlog of claims, encourage 
schools to submit certifications for the Spring semester as soon as 
they are able and begin processing these claims.

    c. Maintain Mandatory Overtime - It does not seem this problem will 
be resolved before the start of the spring semester. VA needs all hands 
on deck to ensure students receive their MHA in a timely manner and 
endure no more hardships.

    d. Make Fall 2018 Semester Payments Whole and Accurate - Make sure 
students receive the money they are due with the COLA increase.

    e. Promptly and Thoroughly Address a Lagging IT Infrastructure - 
There is clearly a significant issue with the existing education IT 
systems. They are failing. Addressing this issue is mandatory. When 
asked what the potential challenges VA might face in implementing 
provisions of the Forever GI Bill, former Deputy Under Secretary of 
Economic Opportunity Curt Coy stated he was most concerned about the IT 
system. His concerns have been validated.

    We ask that members of Congress and VA make it a priority to 
address these issues in a timely and efficient manner. While $30 
million was allocated for an upgraded IT system, it is not clear that 
this amount of money will suffice for the upgrade. Further it is not 
clear whether or not this money has been appropriated.
    We also ask the VA Secretary to ensure this money is used 
specifically for what it is intended to do, build and enhance a new IT 
system. The current outdated system is failing and has had too many 
patches added to it to try and fix it. Like a boat, there can only be 
so many patches before the it sinks. This sinking IT system has now 
negatively impacted the lives of hundreds of thousands of veterans and 
their families and must be addressed.

    f. Conduct Study on Feasibility on Batch Payments - Unlike VA, the 
Department of Education (ED) processes batch payments to schools prior 
to the semester starting based on the enrollment of past years. This 
process has been effective for both schools and ED, and we believe 
there might be lessons learned for VA on ways to more effectively 
process education benefit payments. In theory, this process could 
alleviate the work of VA on the front end, so they can focus on 
processing the MHA for students. While we understand there are many 
variables between how VA processes payments and how ED processes 
payments, we believe there might be potential for better streamlining 
the current system at VA. Additionally, it would protect students from 
being dropped from classes, charged late fees, and/or being prohibited 
from registering for class for the following semester.

    i. Make SITREP the law - We are thankful to members of the House 
for passing SITREP, which ensures student veterans have access to 
classes and facilities if VA payment is delayed. Unfortunately, it has 
remained stagnant on the Senate side and has yet to make it in front of 
the Senate Veterans Affairs Committee or the rest of the Senate for a 
vote. If ever there was a time that it was obvious this bill needed to 
be passed, now is the time. We have had students contact us because of 
the negative repercussions of the delay in payments to institutions of 
higher learning. SITREP would provide necessary protections for 
students.

    g. Provide Students Accurate Benefits Information - Create a 
document, similar to a check stub, that students can use to show 
landlords and other loan guarantors. This stub will confirm the amount 
of money they will be receiving each month in their MHA and will help 
them in securing housing, utilities, etc.

    h. Make Economic Opportunity a priority - The current state of 
affairs with the implementation of Section 107 of the Forever GI Bill 
is indicative of the concern many VSOs have about the lack of priority 
Economic Opportunity has within VA. Removing the Deputy Under Secretary 
Position silenced one of the few advocates in leadership this office 
had. It was clear back in the summer of 2018, if not earlier, that this 
process was going to be much more difficult than originally planned yet 
the low priority this office holds within VA meant that it kept moving 
forward without adequate support from those in leadership positions who 
had the power to make executive decisions.

    We appreciate the work VA has done to address these concerns from 
early October and hope these recommendations can help prevent similar 
challenges from happening in the future. We owe it to people such as 
Ryan and Jane Wiley, both student veterans using their GI Bill benefits 
to go to school at Texas A&M and parents to two young children to 
resolve this issue immediately. \3\ Those who served our country and 
are using their hard earned benefits to attend school and ensure their 
civilian economic success do not deserve to have maxed out credit cards 
and worry about for their family come November 1, if they did not 
receive their MHA, since they would by then run completely out of 
money. \4\
---------------------------------------------------------------------------
    \3\ https://www.nbcnews.com/news/us-news/va-owes-veterans-housing-
allowances-under-gi-bill-forcing-some-n917286
    \4\ Ibid
---------------------------------------------------------------------------
    We also appreciate the amount of time, effort, and attention the 
Committee has dedicated to providing oversight of the implementation of 
the Forever GI Bill.

    Tanya Ang
    Vice President
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cc98ada2b5ad8c9aa9b8a9beada2bf89a8b9afadb8a5a3a29fb9afafa9bfbfe2a3beab">[email&#160;protected]</a>


                                 <F-dash>
          Veterans Of Foreign Wars Of The United States (VFW)
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to present our views on this important benefit.
    The Department of Veterans Affairs (VA) was required by Congress to 
implement major provisions of P.L.115-48, the Forever GI Bill, by 
August 1, 2018. In the months preceding the deadline, VA officials 
repeatedly vowed that students and schools would receive payments on 
time and, while the amounts may not be correct, veterans would not be 
harmed. Yet, VA has consistently missed its deadlines and has failed to 
properly notify stakeholders and affected beneficiaries.
    After repeated inquiries, the VFW was told time and again, even as 
late as October 3, 2018, that all students were receiving some form of 
payments and the only issue was whether or not the amount of money 
students were receiving was correct. Finally, on October 9, 2018, VA 
admitted there was a larger problem and announced there were 
approximately 180,000 claims yet to be processed for the fall semester. 
These two different statements are wildly inconsistent and show a true 
breakdown in communication and transparency within VA.
    The delays in implementing the changes to VA-ONCE pushed back 
normal certification of education claims until two weeks before the 
start of the fall semester. As the deluge of claims then began to roll 
in, VA employees must have recognized the overwhelming workload 
compared to previous normal day to day operations. Yet, nobody seemed 
willing to immediately reach out to schools and students to prepare 
them for eventual delays. This type of inaction by VA led to real life 
consequences for student veterans.
    A Virginia family contacted the VFW for assistance after not 
receiving their housing allowance since beginning the fall 2018 
semester. Their financial hardship was compounded because both are 
student veterans, and were relying on the timely disbursement of their 
benefits. When this did not occur, they fell behind in their rent, car 
payments, and utilities. To survive, they borrowed money from friends 
and family to keep a roof over their heads. Once they were informed of 
the Financial Hardship process by the VFW, they applied and received a 
partial payment from VA. They are not experiencing financial hardship 
any longer, but things are not fully back to normal, and are even more 
afraid that this issue will be repeated in the spring semester.
    A young dependent of a service-connected veteran from Phoenix 
contacted the VFW after hearing about the 1 Student Veteran program. 
The current IT issues are not only affecting the payment and 
administration of Chapter 33, but in her case, Chapter 35 (aka DEA) as 
well. She was granted Chapter 35 benefits, but due to IT challenges, 
call center counselors could not inform her of when she would receive 
her award letter and payment, which is her only source of income. She 
faced repossession of her car until the VFW intervened and notified the 
creditor that her VA payment would be forthcoming. She later received 
her retroactive payments and was able to keep her car, allowing her to 
attend classes and take care of her infant daughter.
    In order to make sure hardships like these do not recur in the 
upcoming semester the VFW has a few recommendations. First, we 
recommend VA prioritize their processing by focusing their attention 
into three groups for processing. The priority group that should be 
addressed first is the backlog of claims from the fall semester so 
current students can get back to some semblance of normalcy. Then, VA 
needs to prepare for and begin processing spring semester claims so 
students don't face a repeat scenario a few months from now. After 
that, VA needs to rectify the underpayments from the fall based on the 
IT upgrades being ready. This final step should be taken after the 
first two priority groups are addressed in order to lessen the burden 
on VA. A slight underpayment from the fall is better than no payment 
again in the spring semester.
    Second, VA must recognize the processing error that affected the 
entire system, and take the steps to rectify it. Hardware issues like 
not having enough bandwidth to accommodate Regional Processing Offices 
is unacceptable. Offices like Muskogee were hampered by lack of 
bandwidth which impacts not only Chapter 33 payments, but all claims 
processing that comes out of that building. Software upgrades like the 
zip code changes should not sink an entire IT system. Adjusting zip 
codes is not rocket science, and should not crash VA's processing 
abilities. VA must be forthcoming with actual problems and also 
suggested solutions to fix them. If no plan to fix the problems is 
produced then there is no way to stay ahead of issues like this and VA 
will be doomed to repeat this situation. VA must fix its IT issues now. 
Failure to focus on real solutions will have significant impacts on 
student veterans who rely on their earned educational benefits.
    Our third recommendation is to involve veterans' organizations, 
student groups, or other stakeholders who work with students on a 
regular basis to anticipate problems and be more proactive in 
communicating with those are affected. The VFW and our partner veteran 
groups have been asking for certain information, and suggesting problem 
areas where VA should look in the spring semester. There is clearly a 
disconnect with VA and student veterans, and more collaboration between 
VA and veterans groups could help alleviate the communications gap, and 
better prepare students and schools as quickly as possible.
    The VFW is concerned that VA will fail to take the needed steps to 
avoid repeating this mess in the upcoming semester. Temporarily adding 
more workers and authorizing overtime was a potential solution for the 
current problems, but that is not a permanent solution and we do not 
want to be sitting around at an oversight hearing in April to simply 
hear the same story again. VA's plan was to wait until the system was 
fully ready to roll out before stress-testing it. Decisions like 
consciously waiting until the 11th hour to do a systems check is 
unacceptable. Problems like this will continue unless real changes are 
made. If there are not substantive changes made now, then time and 
money will again be wasted next semester, and student veterans will 
face the hardships all over again.
    One of the biggest problems that could have been confronted earlier 
was the lack of transparency about the severity of the delayed payment 
problem. Student veterans and schools waited with no answers about the 
cause or eventual solution to their financial problems. VA owes it to 
those student veterans to better inform them if there are problems, and 
not wait until it becomes a critical issue to admit errors. Student 
veterans earned their education benefits and should not have to suffer 
like this because VA was unwilling to face accountability and recognize 
there is a failure. Proper leadership means having to own up to 
negative outcomes and not keep pushing that burden down the road until 
it can be swept away. We call on VA's leadership to vow to be as open 
and transparent as possible, especially when veterans' livelihoods are 
on the line.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
